AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

   OFFICE FOR VICTIMS OF CRIME GRANTS 

 AWARDED TO UNIFIED SOLUTIONS TRIBAL

  COMMUNITY DEVELOPMENT GROUP, INC.,

             TEMPE, ARIZONA





        U.S. Department of Justice

      Office of the Inspector General

               Audit Division



       Audit Report GR-60-13-001

             November 2012

              AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

                 OFFICE FOR VICTIMS OF CRIME GRANTS

               AWARDED TO UNIFIED SOLUTIONS TRIBAL

                COMMUNITY DEVELOPMENT GROUP, INC.,

                           TEMPE, ARIZONA


                        EXECUTIVE SUMMARY


       The Office of the Inspector General, Audit Division, has completed
an audit of grants awarded by the Office of Justice Programs (OJP), Office
for Victims of Crime (OVC), to Unified Solutions Tribal Community
Development Group (Unified Solutions), formerly known as Unified
Solutions Coaching and Consulting Group. As shown in Exhibit 1 below,
Unified Solutions was awarded a total of $6,520,000 to implement five
Training and Technical Assistance (T&TA) grant programs.

EXHIBIT 1: OFFICE FOR VICTIMS OF CRIME GRANTS AWARDED TO
            UNIFIED SOLUTIONS
                         AWARD       AWARD
     GRANT AWARD       START DATE   END DATE   AWARD AMOUNT
   2005-VR-GX-0012      09/01/05    08/31/06    $   250,000
      Supplement 1                  08/31/07        250,000
      Supplement 2                  02/28/09        250,000
   2006-MU-GX-0001      12/01/06    11/30/07        600,000
      Supplement 1                  11/30/08        600,000
      Supplement 2                  09/30/10        420,000
   2008-VR-GX-0010      09/01/08    08/31/09        350,000
      Supplement 1                  08/31/10        500,000
      Supplement 2                  03/31/12        300,000
   2009-MU-GX-K012      09/01/09    08/31/10        500,000
      Supplement 1                  08/31/11        500,000
      Supplement 2                  08/31/12        500,000
    2009-VI-GX-0001     09/01/09    08/31/10        500,000
      Supplement 1                  08/31/11        500,000
      Supplement 2                  08/31/12        500,000
                                        Total:  $6,520,000
Source: OJP

      The purpose of the T&TA Counseling for Crime Victims in Indian
Country by Faith-Based Organizations grant program was to support fiscal
year (FY) 2004 Faith-Based Counseling for Crime Victims in Indian
Country award recipients by providing culturally relevant training and
technical assistance. The purpose of the Tribal Victim Assistance T&TA
grant program was to assist victims by enhancing the capacity of remote
victim service providers to serve victims and sustain the services
developed. The purpose of the T&TA for Counseling & Faith-Based
Services for Crime Victims in Indian Country Competitive Grant Program
was to support the award recipients of the FY 2008 Counseling for Crime
Victims in Indian Country by Faith-Based Organizations grant program.
The purpose of the T&TA for Tribal Victim Assistance Grant Programs is to
support training and technical assistance to Tribal Victim Assistance grant
recipients. The purpose of the Multidisciplinary Technical Assistance (TA)
Project for Children’s Justice Act (CJA) Partnerships in Indian Country
grant program is to support the award recipients of the FY 2009
Children's Justice Act Partnerships for Indian Communities grant program.

       Since 1984, OJP has provided federal leadership in developing the
nation's capacity to prevent and control crime, improve the criminal and
juvenile justice systems, increase knowledge about crime and related
issues, and assist crime victims. The OVC is charged by Congress with
administering the Crime Victims Fund, a major source of funding for
victim services throughout the Nation. Established by the Victims of
Crime Act (VOCA) in 1984, the Crime Victims Fund supports thousands of
programs annually that represent millions of dollars invested in victim
compensation and assistance in every U.S. state and territory, as well as
training and demonstration projects designed to enhance the skills of
those who provide services to victims. Altogether, VOCA funds support a
broad array of programs and services that focus on helping victims in the
immediate aftermath of crime and supporting them as they rebuild their
lives. Although the specific type of outreach provided varies by need and
location, the common goal of the OVC and VOCA is to reach out with a
compassionate, skilled, and effective response to victims who have
suffered physical, sexual, emotional, and financial harm as a result of
crime.

      According to Unified Solutions, the organization is dedicated to
partnering with American Indian/Alaska Native communities to end
violent crime, heal from the effects of trauma, and promote resilience,
through examination and dismantling of internalized oppression at all
levels. Unified Solutions provides training and resources to build
confident and responsive grassroots leadership, by working in partnership
with diverse community sectors, actively seeking the participation and
involvement of resident community members, and recognizing equitable,
shared power among all stakeholders involved in a project. Unified
Solutions facilitates learning environments and promotes links between
multi-cultural, multi-disciplinary, and multi-faith communities to develop
a best practices network of "unified solutions" to sustain peace in our
world. Unified Solutions tailors its services and products to uphold the
unique cultural heritage and spiritual vitality of those served.


                                    ii
      The purpose of this audit was to determine whether
reimbursements claimed for costs under the grants were allowable,
supported, and in accordance with applicable laws, regulations,
guidelines, and terms and conditions of the grant, and to determine
program performance and accomplishments. The objective of our audit
was to review performance in the following areas: (1) internal control
environment, (2) drawdowns, (3) grant expenditures, including personnel
and indirect costs, (4) budget management and control, (5) headcount
and payroll testing, (6) property management, (7) financial status and
progress reports, (8) grant requirements, (9) program performance and
accomplishments, (10) monitoring of contractors, and (11) grant
closeout. We determined that indirect costs were not applicable to these
grants.

       We examined Unified Solutions’ accounting records, financial and
progress reports, and operating policies and procedures for each of the
five grants and determined that:

  •	 for Grant Nos. 2005-VR-GX-0012, 2006-MU-GX-0001, 2008-VR-GX­
     0010, and 2009-MU-GX-K012, 149 of 364 drawdown periods
     indicated cumulative drawdowns in excess of cumulative
     expenditures within the 10-day window dictated by the OJP
     Financial Guide.

  •	 for Grant Nos. 2006-MU-GX-0001 and 2008-VR-GX-0010,
     cumulative drawdowns exceeded cumulative expenditures at the
     time of our audit.

  •	 two drawdowns for Grant Nos. 2009-MU-GX-K012 and
     2009-VI-GX-0001 were recorded in accounting records to the wrong
     grant, and one drawdown for Grant No. 2008-VR-GX-0010 was not
     recorded in accounting records.

  •	 of 328 transactions tested for all 5 grants, 155 expenditures
     totaling $62,976 were unallowable according to grant criteria and
     49 expenditures totaling $62,660 lacked adequate supporting
     documentation.

  •	 of 328 transactions tested for all 5 grants, 26 transactions did not
     fully comply with management requirements, including 20
     transactions that lacked proper authorization, 3 expenditures
     approved by the payee, 2 expenditures listed in the incorrect
     budget category, and 1 invoice not marked as paid.


                                    iii
  •	 for Grant Nos. 2005-VR-GX-0012 and 2006-MU-GX-0001,
     expenditures exceeded the grant budget in several categories.
     Cumulatively, these expenditures surpassed the 10-percent
     allowance in the OJP Financial Guide by $129,682 and $10,309,
     respectively.

  •	 Unified Solutions personnel did not check the Excluded Parties List
     System (EPLS) when selecting a contractor or consultant.

  •	 Unified Solutions’ asset and disposal lists were not complete or
     accurate, and did not ensure that property and equipment acquired
     with grant funds was used in accordance with grant requirements.

  •	 all 20 of the Financial Status Reports reviewed were inaccurate
     when compared to the general ledger.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                   iv
                     TABLE OF CONTENTS

INTRODUCTION........................................................................ 1

     Background.......................................................................... 2

     Our Audit Approach............................................................... 3

FINDINGS AND RECOMMENDATIONS ....................................... 5

     Internal Control Environment ................................................. 5

           Single Audit ................................................................... 5

           Financial Management System.......................................... 8

     Drawdowns .......................................................................... 8

         Drawdown Amounts in Excess of Expenditures…………………......9

         Drawdowns Not Accurately Recorded in Accounting Records…10

     Transaction Testing..............................................................11

        Personnel Expenditures .....................................................11

        Other Direct Costs ............................................................12

     Budget Management and Control ...........................................13

     Accountable Property ...........................................................14

     Reports ..............................................................................18

           Financial Status Reports .................................................18

           Categorical Assistance Progress Reports ...........................20

     Program Performance and Accomplishments ...........................21

     Compliance with Grant Requirements .....................................23

     Monitoring Contractors .........................................................24

     Grant Closeout ....................................................................25

     Recommendations ...............................................................25

APPENDIX I: OBJECTIVES, SCOPE, AND METHODOLOGY ........ 27

APPENDIX II: SCHEDULE OF DOLLAR-RELATED FINDINGS..... 29

APPENDIX III: SUMMARY OF UNALLOWABLE AND 

    UNSUPPORTED EXPENDITURES...................................... 30

APPENDIX IV: UNIFIED SOLUTIONS’ RESPONSE TO THE DRAFT 

    REPORT .......................................................................... 38

APPENDIX V: OFFICE OF JUSTICE PROGRAMS’ RESPONSE TO

    THE DRAFT REPORT ....................................................... 44

APPENDIX VI: OFFICE OF THE INSPECTOR GENERAL ANALYSIS

    AND SUMMARY OF ACTIONS NECESSARY TO RESOLVE THE

    REPORT .......................................................................... 48

              AUDIT OF THE OFFICE OF JUSTICE PROGRAMS

                 OFFICE FOR VICTIMS OF CRIME GRANTS 

               AWARDED TO UNIFIED SOLUTIONS TRIBAL

                COMMUNITY DEVELOPMENT GROUP, INC.,

                           TEMPE, ARIZONA


                            INTRODUCTION


      The Office of the Inspector General, Audit Division, has completed an
audit of grants awarded by the Office of Justice Programs (OJP), Office for
Victims of Crime (OVC), to Unified Solutions Tribal Community Development
Group (Unified Solutions), formerly known as Unified Solutions Coaching and
Consulting Group. As shown in Exhibit 1 below, Unified Solutions was
awarded a total of $6,520,000 to implement Training and Technical
Assistance (T&TA) for five grant programs.

EXHIBIT 1. 	 FFICE FOR VICTIMS OF CRIME GRANTS AWARDED TO
           O
            UNIFIED SOLUTIONS
                         AWARD       AWARD
     GRANT AWARD       START DATE   END DATE   AWARD AMOUNT
   2005-VR-GX-0012      09/01/05    08/31/06    $   250,000
     Supplement 1                   08/31/07        250,000
     Supplement 2                   02/28/09        250,000
  2006-MU-GX-0001       12/01/06    11/30/07        600,000
     Supplement 1                   11/30/08        600,000
     Supplement 2                   09/30/10        420,000
   2008-VR-GX-0010      09/01/08    08/31/09        350,000
     Supplement 1                   08/31/10        500,000
     Supplement 2                   03/31/12        300,000
  2009-MU-GX-K012       09/01/09    08/31/10        500,000
     Supplement 1                   08/31/11        500,000
     Supplement 2                   08/31/12        500,000
   2009-VI-GX-0001      09/01/09    08/31/10        500,000
     Supplement 1                   08/31/11        500,000
     Supplement 2                   08/31/12        500,000
                                        Total:  $6,520,000
Source: OJP

      The purpose of the T&TA Counseling for Crime Victims in Indian
Country by Faith-Based Organizations grant program was to support fiscal
year (FY) 2004 Faith-Based Counseling for Crime Victims in Indian Country
award recipients by providing culturally relevant training and technical
assistance. The purpose of the Tribal Victim Assistance T&TA grant program
was to assist victims by enhancing the capacity of remote victim service
providers to serve victims and sustain the services developed. The purpose


                                     1

of the T&TA for Counseling & Faith-Based Services for Crime Victims in
Indian Country Competitive Grant Program was to support the award
recipients of the FY 2008 Counseling for Crime Victims in Indian Country by
Faith-Based Organizations grant program. The purpose of the T&TA for
Tribal Victim Assistance Grant Programs is to support training and technical
assistance to Tribal Victim Assistance grant recipients. The purpose of the
Multidisciplinary Technical Assistance (TA) Project for Children’s Justice Act
(CJA) Partnerships in Indian Country grant program is to support the award
recipients of the FY 2009 Children's Justice Act Partnerships for Indian
Communities grant program.

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grants were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance in
the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, including personnel and indirect costs, (4) budget
management and control, (5) headcount and payroll testing, (6) property
management, (7) financial status and progress reports, (8) grant
requirements, (9) program performance and accomplishments, (10)
monitoring of contractors, and (11) grant closeout. We determined that
indirect costs were not applicable to these grants.

Background

       OJP provides federal leadership in developing the nation's capacity to
prevent and control crime, improve the criminal and juvenile justice
systems, increase knowledge about crime and related issues, and assist
crime victims. The OVC is charged by Congress with administering the
Crime Victims Fund, a major source of funding for victim services throughout
the Nation. Established by the Victims of Crime Act (VOCA) in 1984, the
Crime Victims Fund supports thousands of programs annually that represent
millions of dollars invested in victim compensation and assistance in every
U.S. state and territory, as well as training and demonstration projects
designed to enhance the skills of those who provide services to victims.
Altogether, VOCA funds support a broad array of programs and services that
focus on helping victims in the immediate after math of crime and
supporting them as they rebuild their lives. Although the specific type of
outreach provided varies by need and location, the common goal of the OVC
and VOCA is to reach out with a compassionate, skilled, and effective
response to victims who have suffered physical, sexual, emotional, and
financial harm as a result of crime.



                                       2

       According to Unified Solutions, the organization is dedicated to
partnering with American Indian/Alaska Native communities to end violent
crime, heal from the effects of trauma, and promote resilience, through
examination and dismantling of internalized oppression at all levels. Unified
Solutions provides training and resources to build confident and responsive
grassroots leadership, by working in partnership with diverse community
sectors, actively seeking the participation and involvement of resident
community members, and recognizing equitable, shared power among all
stakeholders involved in a project. Unified Solutions facilitates learning
environments and promotes links between multi-cultural, multi-disciplinary,
and multi-faith communities to develop a best practices network of "unified
solutions" to sustain peace in our world. Unified Solutions tailors its services
and products to uphold the unique cultural heritage and spiritual vitality of
those served.

Our Audit Approach

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the OJP Financial Guide and the award
documents.

      In conducting our audit, we performed sample testing in the areas of
drawdowns, grant expenditures, payroll, and property management. In
addition, we reviewed the timeliness and accuracy of Financial Status
Reports (FSR) and progress reports, evaluated performance to grant
objectives, evaluated the grantee’s monitoring of contractors, and reviewed
the internal controls of the financial management system.

      We tested Unified Solutions’:

   •	 internal control environment to determine whether the internal
      controls in place for the processing and payment of funds were
      adequate to safeguard grant funds and ensure compliance with the
      terms and conditions of the grants;

   •	 grant drawdowns to determine whether grant drawdowns were
      adequately supported and if Unified Solutions was managing grant
      receipts in accordance with federal requirements;

   •	 grant expenditures to determine the accuracy and allowability of
      costs charged to the grants;




                                       3

  •	 budget management to determine whether actual expenditures are
     in accordance with approved budgets;

  •	 accountable property to determine controls over equipment

     purchased with grant funds;


  •	 Financial Status Reports and Progress Reports to determine if the
     required Financial Status Reports and Progress Reports were submitted
     on time and accurately reflect grant activity; and

  •	 grant objectives and accomplishments to determine if Unified
     Solutions met or is capable of meeting the grants’ objectives.

     These items are discussed in detail in the Findings and
Recommendations section of the report. Our audit objectives, scope, and
methodology are discussed in Appendix I.




                                    4

                  FINDINGS AND RECOMMENDATIONS

     We found that Unified Solutions’ accounting records reflected
     that cumulative drawdowns exceeded cumulative expenditures
     for 149 of 364 drawdown periods; two drawdowns were recorded
     in accounting records for the wrong grant and one drawdown
     was not recorded in accounting records. Of the 328 transactions
     tested for all 5 grants, we identified 26 expenditures related to
     management improvement findings, 155 expenditures totaling
     $62,976 that were unallowable according to grant criteria, and
     49 expenditures totaling $62,660 that lacked adequate
     supporting documentation. Additionally, we questioned a total of
     $139,991, for two grants that were non-compliant with the
     10-percent allowance in the OJP Financial Guide. Further,
     Unified Solutions personnel did not refer to the Excluded Parties
     List System (EPLS) when selecting a contractor or consultant as
     required. In addition, asset and disposal lists were incomplete,
     inaccurate, and inconsistent, and did not ensure that property
     and equipment acquired with grant funds was used in
     accordance with grant requirements. Finally, we found that all
     20 of the Financial Status Reports reviewed were inaccurate
     when compared to accounting records.

Internal Control Environment

      We reviewed Unified Solutions’ financial management system, policies
and procedures, and Single Audit Reports to assess the risk of
non-compliance with laws, regulations, guidelines, and terms and conditions
of the grants. We also interviewed Unified Solutions personnel regarding
areas such as payroll, purchasing, receiving, and accounts payable, and
observed accounting activities to further assess risk.

Single Audit

      According to Office of Management and Budget (OMB) Circular A-133,
Unified Solutions is required to perform a Single Audit annually with the
report due no later than 9 months after the end of the fiscal year. Unified
Solutions fiscal year is from October 1 through September 30. We reviewed
the Single Audits for Unified Solutions from FYs 2005 through 2010 and
found that each of Unified Solutions Single Audits in the scope of this audit
had been submitted within the 9 month deadline. The FY 2011 Single Audit
Report was not completed nor due at the time of our audit.




                                      5

      The following Findings were reported in the FYs 2007 through 2010
Single Audit Reports and are directly related to DOJ grants.

  •	 Finding 07-1 grant drawdowns in excess of expenditures –
     “…several grant advances remained in Unified's bank account for an
     excessive period of time. Unified was not in compliance with the cash
     management requirements of its Crime Victim Assistance Grant.”
     Seven drawdowns were identified as exceeding the allowable period of
     time, ranging from 32 to 73 days, to drawdown funds. This finding
     was noted as a significant deficiency and material noncompliance.

  •	 Finding 08-1 grant drawdowns in excess of expenditures –
     “…multiple grant advances remained in Unified's bank account for an
     excessive period of time. Unified was not in compliance with the cash
     management requirements of its Crime Victim Assistance Grants.”
     Three drawdowns were identified as exceeding the allowable period of
     time, ranging from 20 to 39 days, to drawdown funds. This finding
     was noted as a significant deficiency in internal control and material
     noncompliance, and was a repeat finding from FY 2007 (Finding 07-1).

  •	 Finding 08-2 unadjusted general ledger was not materially
     correct – “…material audit adjustments were required for the financial
     statements to be correct at year-end. The unadjusted general ledger
     was not materially correct under generally accepted accounting
     principles.” “Government grants are not accounted for on an accrual
     basis throughout the year and accruals were not done for several
     accounts payable at year-end. Revenues, grants receivable, and
     unearned revenues were materially misstated throughout the year and
     at year-end. Accounts payable was also materially misstated at year
     end.” This finding was noted as a significant deficiency in internal
     control.

  •	 Finding 09-1 grant drawdowns in excess of expenditures –
     “…grant advances remained in Unified's bank account for an excessive
     period of time. Unified was not in compliance with the cash
     management requirements of its Crime Victim Assistance Grants
     during part of the year audited.” This finding was noted as a
     significant deficiency in internal control and material noncompliance,
     and was a repeat finding from FYs 2007 and 2008 (Findings 07-1 and
     08-1).

  •	 Finding 09-2 unadjusted general ledger was not materially
     correct – “…material audit adjustments were required for the financial
     statements to be correct at year-end. The unadjusted general ledger


                                    6

        was not materially correct under generally accepted accounting
        principles.” “Government grants are accounted for on a cash basis
        throughout the year and the correct accrual was not done for the
        grants receivable at year-end, causing revenues and grants receivable
        to be materially misstated.” This finding was noted as a significant
        deficiency in internal control and was a repeat finding from FY 2008
        (Finding 08-2).

   •	 Finding 10-1 unadjusted general ledger was not materially
      correct – “…material audit adjustments were required for the financial
      statements to be correct at year-end. The unadjusted general ledger
      was not materially correct under generally accepted accounting
      principles.” “Government grants are accounted for on a cash basis
      throughout the year and the correct accrual was not done for the
      grants receivable at year-end, causing revenues and grants receivable
      to be materially misstated.” This finding was noted as a material
      weakness in internal control and was a repeat finding from FYs 2008
      and 2009 (Findings 08-2 and 09-2).

      All findings noted above directly impacted these grants and this
audit. The auditors conducting the Single Audit also notified Unified
Solutions of other matters involving internal controls and its operation from
FYs 2007 through 2010 in separate documentation from the Single Audit
Reports. Issues noted included:

   •	   Cash disbursement and check management (noted in FY 2006,

        FY 2007, FY 2008, FY 2009, FY 2010);


   •	   Payroll, including missing timesheets, missing incomplete I-9's, and
        authorized pay rate not approved with a physical signature (noted in
        FY 2006, FY 2007, FY 2008, FY 2010);

   •	   Inadequate Board oversight (noted in FY 2007, FY 2008, FY 2009,
        FY 2010);

   •	   Grant drawdowns did not match expenditures, by immaterial

        amounts (noted in FY 2010);


   •	   Letter sent to a donor did not contain required IRS wording (noted
        FY 2010);

   •	   Management of petty cash (noted in FY 2006, FY 2007, FY 2008,

        FY 2009);




                                       7

   •   Inadequate bank reconciliations (noted in FY 2008);

   •   Lack of oversight over adjusting entries (noted in FY 2008);

   •   Credit card management (noted in FY 2007); and

   •   No written whistleblower policy (noted in FY 2007).

Financial Management System

       A review of Unified Solutions’ financial management system did not
indicate any significant issues related to internal controls for the accounting
system. There is sufficient separation of duties for the organization’s size,
and the operating procedures appear to be documented. We found Unified
Solutions’ management structure is geographically decentralized; the
primary business is located in Tempe, Arizona, while the Executive Director
is located in Virginia. However, extensive use of telecommunications and
document shipping services appears to mitigate potential issues caused by
distance. We also noted numerous adjusting entries to the general ledger
for each fiscal year, which created issues for Unified Solutions in regard to
accurate reporting; these issues are discussed in the Reports section of this
report.

Drawdowns

        According to the OJP Financial Guide, award recipient organizations
should request funds based upon immediate disbursement/reimbursement
requirements. Recipients should time their drawdown requests to ensure
that Federal cash on hand is the minimum needed for reimbursements to be
made immediately, or within 10 days. Unified Solutions officials stated that
drawdowns were based on actual expenditures in the accounting records and
short-term advances based on actual payroll to be paid. We reviewed the
accounting records and compared expenditures to actual drawdown amounts
and found weaknesses in Unified Solutions’ cash management and
accounting in relation to drawdowns, including drawdown amounts that
exceeded expenditures for the draw period and drawdowns that were
recorded to the wrong grant in the accounting records, or were not recorded
at all.




                                       8

Drawdown amounts in excess of expenditures

      As shown in Exhibit 2, in four of the five grants audited, we found
periods in which cumulative drawdowns exceeded cumulative expenditures
within the 10-day requirement stated in the OJP Financial Guide:

   •	   2005-VR-GX-0012: 30 of 48 drawdown periods indicated cumulative
        overdraws;

   •	   2006-MU-GX-0001: 27 of 105 drawdown periods indicated cumulative
        overdraws (this grant was closed out on February 18, 2011, and
        accounting records indicated that final drawdowns of $1,620,000
        exceeded final expenditures of $1,574,147.71 by $45,852.29);

   •	   2008-VR-GX-0010: 82 of 124 drawdown periods indicated cumulative
        overdraws (as of December 31, 2011, accounting records indicated
        that cumulative drawdowns exceeded cumulative expenditures by
        $23,411.24); and,

   •	   2009-MU-GX-K012: 10 of 87 drawdown periods indicated cumulative
        overdraws.

EXHIBIT 2: DRAWDOWNS IN EXCESS OF EXPENDITURES
                          GRANT NO.   GRANT NO.   GRANT NO.   GRANT NO.   GRANT NO.
                          2005-VR­    2006-MU­    2008-VR­    2009-MU­    2009-VI­
                          GX-0012     GX-0001     GX-0010     GX-K012     GX-0001
 Number of drawdown
  periods                    48         105         124          87          88
 Number of periods with
  cumulative overdraw        30          27          82          10          0
Source: OJP and Unified Solutions

       As shown in Exhibit 3, for two of the five grants audited, we found that
total drawdowns exceeded total expenditures at the time of our audit.

   •	   2006-MU-GX-0001: total drawdowns of $1,620,000 exceeded total
        expenditures of $1,574,148 by $45,852. This grant ended September
        30, 2010, and has been closed out.

   •	   2008-VR-GX-0010: total drawdowns of $1,075,442 exceeded total
        expenditures of $1,052,031 by $23,411.




                                           9

EXHIBIT 3: DRAWDOWNS VERSUS ACCOUNTING RECORDS 1
                        GRANT NO.     GRANT NO.     GRANT NO.     GRANT NO.      GRANT NO.
                        2005-VR­      2006-MU­      2008-VR­      2009-MU­       2009-VI­
                        GX-0012       GX-0001       GX-0010       GX-K012        GX-0001
 Total expenses per
  accounting records     $751,861     $1,574,148    $1,052,031   $1,065,768      $965,885
 Total drawdowns per
  accounting records        750,000    1,620,000     1,075,442       1,041,302    933,242
 Total expenses minus
  total drawdowns       $     1,861   $ (45,852)    $ (23,411)   $     24,466    $ 32,643
Source: OJP and Unified Solutions

Drawdowns not accurately recorded in accounting records

      We also found that accounting records did not match Grant
Management System (GMS) drawdown records in five instances for the three
active grants, as shown in Exhibit 4.

   •	   A drawdown for $7,910 was recorded for Grant No. 2009-VI-GX-0001
        on July 28, 2010, but there was no corresponding drawdown in GMS
        for this grant. For Grant No. 2009-MU-GX-K012, GMS indicated a
        drawdown of $7,910 on July 26, 2010. We determined
        this drawdown was recorded to the incorrect grant in the accounting
        records.

   •	   A drawdown of $6,687 was recorded for Grant No. 2009-MU-GX-K012
        on November 16, 2011, but there was no corresponding drawdown in
        GMS for this grant. There was a drawdown of $6,687 for Grant No.
        2009-VI-GX-0001 on November 14, 2011, that was noted in GMS but
        not in Unified Solutions’ accounting records for this grant. We
        determined this drawdown was recorded to the incorrect grant in the
        accounting records.

   •	   We also identified a drawdown of $5,321 noted in GMS for Grant
        No. 2008-VR-GX-0010 on December 12, 2011, but there was no entry
        in the accounting records for any of the grants audited
        that corresponds with this amount.




        1
        Differences in total amounts are due to rounding, e.g., the sum of individual
numbers prior to rounding may differ from the sum of the individual numbers rounded.




                                            10

EXHIBIT 4: DRAWDOWNS NOT ACCURATELY RECORDED

                         GRANT NO.   GRANT NO.      GRANT NO.    GRANT NO.    GRANT NO.
                         2005-VR­    2006-MU­       2008-VR­     2009-MU­     2009-VI­
                         GX-0012     GX-0001        GX-0010      GX-K012      GX-0001
 Total drawdowns per
  GMS as of 12/31/2011   $750,000    $1,620,000     $1,080,763   $1,042,525   $932,019
 Total drawdowns per
  accounting records      750,000     1,620,000      1,075,442    1,041,302    933,242
 Periods where GMS
  drawdown did not
  match accounting
  records                       0               0           1            2           2
 GMS total drawdowns
  minus accounting
  drawdowns              $      0    $          0   $   5,321    $    1,223   $ (1,223)
Source: OJP and Unified Solutions

Transaction Testing

      We reviewed personnel and direct cost expenditures. We identified
two discrepancies with documentation and budget information related to
personnel expenditures and determined both discrepancies to be immaterial.
We reviewed 328 direct cost expenditures and found 155 unallowable
expenditures totaling $62,976; 49 unsupported expenditures totaling
$62,660; and 26 expenditures requiring management improvements.

Personnel Expenditures

      We obtained a list of employees paid through grant funds and
compared actual pay rates to budgeted rates. Generally, we found that
employee pay rates for each position were reasonable and in line with the
established grant budget. However, we determined one employee was paid
a higher salary rate than established in the budgets, by $6,540 in 2007. The
employee was paid below the budgeted rate in subsequent sampled periods;
therefore, we take no exception to the 2007 overage.

       We then traced payroll expenditures back to timesheets for two
sampled pay periods for each grant. We found one timesheet was missing
for one employee charged to Grant 2005-VR-GX-0012 for the pay period
starting November 20, 2005, and ending December 3, 2005. Due to the age
of the missing timesheet, and the lack of the issues with the other 9 pay
periods we reviewed, we determined the missing timesheet to be
immaterial.

      We also reviewed fringe benefits for each grant. We were unable to
analyze fringe benefits for individual employees since the grant budgets and
general ledger entries did not identify expenditures for specific


                                          11

employees. When analyzing individual fringe benefit expenditures, we found
actual costs exceeded those budgeted for some elements. However, we
determined none of these to be material, as we found that total fringe
benefits paid did not exceed budgeted fringe benefits.

Other Direct Costs

       We reviewed the general ledgers for the five grants audited and
identified a total of 17,760 transactions with a debit total of $5,837,237,
consisting of expenditures and adjusting entries. We reviewed 328
transactions and found the following exceptions:

   •   155 unallowable expenditures;

   •   49 unsupported expenditures; and

   •   26 expenditures requiring management improvements.

      As detailed in Appendix III, unallowable expenditures included
64 unbudgeted bonus payments to employees, 37 employee insurance
reimbursements that exceeded allowable amounts per Unified Solutions
guidelines, 31 unbudgeted expenditures, 10 instances of noncompliance with
Unified Solutions vehicle rental policies, 8 penalty and late fees, 4 contractor
payments to an employee, and 1 consultant payment that exceeded
contractual amounts. Forty-nine unsupported expenditures were identified
due to inadequate documentation. Management improvement findings
included 20 transactions that lacked proper authorization, 3 expenditures
approved by the payee, 2 expenditures listed in the incorrect budget
category, and 1 invoice not marked as paid.

      We identified total questioned costs of $124,052, which included
unallowable expenditures of $62,976 and unsupported expenditures of
$62,660.2 We also identified expenditures that we felt were excessive, but
we did not question these expenditures as they were purchases of budgeted
items. For example, the approved grant budget for Grant No.
2009-VI-GX-0001, Supplement 1, included a line item for $5,371 for
purchase of office furniture and bookcases to replace “older broken”
furniture. On August 2, 2010, one leather executive chair was purchased for
$700 and five leather executive chairs were purchased for $600 each; all

       2
         We identified four expenditures for Grant No. 2005-VR-GX-0012 that we found to be
unsupported and also unallowable under grant guidelines. Therefore, while unallowable
expenditures totaled $62,976 and unsupported expenditures totaled $62,660, total
questioned costs in this audit were $124,052.




                                           12

were purchased from one supplier. Based on our review of other executive
chairs sold by the supplier, the prices paid by Unified Solutions appeared to
us to be excessive.

Budget Management and Control

      According to the OJP Financial Guide, movement of dollars between
approved budget categories without a Grant Adjustment Notice (GAN) is
allowable up to 10 percent of the total award amount for awards greater
than $100,000. As noted in Exhibit 1, Unified Solutions received five
awards; each award was greater than $100,000. We compared the
approved budgets for each award to the actual expenditures as shown in the
Unified Solutions’ accounting system and determined two grants did not
comply with OJP guidelines.

      We determined that grant expenditures exceeded multiple budget
categories in excess of 10 percent of the total award amounts for Grant Nos.
2005-VR-GX-0012 and 2006-MU-GX-0001, as shown in Exhibit 5. Based on
our analysis, we determined that $129,682 in expenditures from Grant No.
2005-VR-GX-0012, and $10,309 in expenditures from Grant No. 2006-MU­
GX-0001, are unallowable because these expenditures were in excess of the
10 percent threshold per the OJP Financial Guide.

EXHIBIT 5: BUDGET MANAGEMENT AND CONTROL
               COST CATEGORY                    BUDGETED    EXPENDITURES   DIFFERENCE
 Grant No. 2005-VR-GX-0012 (categories in excess of budget)
 Equipment                                        $      -        $6,600       $6,600
 Contractual/Consultant                             73,836       227,959      154,123
 Other                                              95,262       141,081       45,819
 TOTAL OVER BUDGET                                                          $206,543
  TOTAL FEDERAL FUNDS                                                         750,000
  10-PERCENT ALLOWANCE                                                         75,000
  TOTAL EXPENDITURES IN EXCESS OF TOTAL BUDGET   $750,000       $751,861     ($1,861)
                                 COSTS IN EXCESS OF 10-PERCENT THRESHOLD    $129,682

 Grant No. 2006-MU-GX-0001 (categories in excess of budget)
 Contractual/Consultant                          $218,951       $373,125     $154,174
 Other                                            267,850        285,984        18,134
 TOTAL OVER BUDGET                                                          $172,309
  TOTAL FEDERAL FUNDS                                                       1,620,000
  10-PERCENT ALLOWANCE                                                        162,000
  TOTAL EXPENDITURES IN EXCESS OF TOTAL BUDGET $1,620,000     $1,569,551      $      -
                                 COSTS IN EXCESS OF 10-PERCENT THRESHOLD     $10,309
Source: OJP and Unified Solutions




                                         13
Accountable Property

      We analyzed purchasing policies and procedures and determined there
appears to be a separation of procurement duties. Unified Solutions
personnel stated that for all purchases, including property and equipment, a
purchase request must be submitted by the requester and management
must approve of a purchase before it is made. Per Unified Solutions’
financial policies, purchase orders must be placed in writing and purchase
requests are submitted for approval prior to ordering. All purchase orders
must be authorized by management.

      The OJP Financial Guide requires grantees to implement controls to
ensure property and equipment purchased with federal funds are properly
safeguarded, and inventories be conducted every 2 years and reconciled
against accounting records. We did not identify any procedures for periodic
inventories of property or equipment.

      The OJP Financial Guide states that the use of award funds to purchase
new property when suitable property is already available within the
recipient’s organization will be considered an unnecessary expenditure. The
OJP Financial Guide also requires grant recipients to maintain property
records for equipment acquired in whole or part with project funds,
including:

  •   Description of the property;

  •   Serial number or other identification number;

  •   Source of the property;

  •   Identification of the title holder;

  •   Acquisition date;

  •   Cost of the property;

  •   Percentage of Federal participation in the cost of the property;

  •   Location of the property;

  •   Use and condition of the property; and

  •   Disposition data, including the date of disposal and sale price.



                                        14

         Unified Solutions personnel provided us with a capital equipment
list, list of assets, asset disposal list, and list of where assets were located in
the Tempe office. Unified Solutions personnel stated that they maintain a
log of serial numbers for equipment and account for purchased equipment
separately for each grant; however, we determined none of the asset or
equipment logs we received indicated which grant was used to purchase
individual items of property or equipment.

      According to Unified Solutions officials, the threshold for accountable
property was $5,000, which met the requirements stated in the OJP
Financial Guide. Unified Solutions personnel provided us with a capital
equipment list, from which we identified three items of accountable property
and tested all three items. We verified that the property and equipment
were shown in the inventory and shown as federally funded.

      We also identified equipment and property purchased with grant funds,
below the $5,000 accountable property threshold but accounted for by
Unified Solutions in asset and disposal lists. We analyzed Unified Solutions’
asset and disposal lists to verify compliance with OJP Financial Guide
requirements, accuracy of the lists, and existence of the items listed, and
determined that the lists were not complete or accurate. We also
determined Unified Solutions did not ensure that property and equipment
acquired with grant funds was used according to the terms and conditions of
the grants. We specifically noted that:

   •	   the list of who was assigned equipment only tracks property located in
        the Tempe office; it did not account for equipment assigned to
        personnel working in other locations.

   •	   a Dell laptop was assigned to the front desk; however, our physical
        verification identified a Dell desktop computer at that location.

   •	   the assignment list indicated an iPad assigned to a Tempe employee;
        however, during our physical verification the employee stated the iPad
        was not at the office.

   •	   the assignment list listed a phone for the Executive Director; however,
        during transaction testing we noted computers, iPads, furniture, and
        other equipment were purchased for use at the Director’s Virginia work
        location that were not presented on the assignment list. We confirmed
        during physical verification that the Director was traveling with an HP
        Pavilion DV8 laptop, but we were told the iPad was not at the office.




                                        15

   •	   the assignment list indicated that an employee was issued a laptop,
        but there was no brand, model, serial number, or description of the
        laptop on the list.

   •	   the assignment list stated that a Dell Dimension computer was located
        in the back room, but the computer was not at that location during our
        physical verification.

   •	   the assignment list stated that one employee had a Dell Latitude
        E6400 laptop that was not in use in their office; however, during
        physical verification we noted that there were actually two Dell
        Latitude E6400 laptops unused in a locked file cabinet in that office.

   •	   the assignment list stated that the library did not have a computer;
        however, we identified a Dell Latitude E6400 laptop in that room
        connected to the projection system.

   •	   the list of assets was incomplete; the list contained asset descriptions,
        but no serial numbers; did not identify specific locations or assigned
        employees for each asset; and was missing information for some
        assets, such as the date and location of purchase, and where the asset
        is located.

       As noted above, the OJP Financial Guide requires grant recipients to
maintain disposition data, including the date of disposal and sale price. The
OJP Financial Guide also states grant recipients are responsible for replacing
or repairing property that is willfully or negligently lost, stolen, damaged, or
destroyed, and requires grant recipients to fully document any loss or
damage and make that documentation part of the grant records. Unified
Solutions officials provided us with an asset disposal list that indicated 48
individual asset dispositions with an original cost total of $42,030; some
asset dispositions recorded multiple items that were disposed of
simultaneously. We identified issues with documentation and procedures
related to disposed assets. Specifically, we noted issues with completeness
of Unified Solutions’ asset disposal list and short durations between the
purchase and disposal of some assets:

   •	   A computer purchased February 19, 2005, valued at $1,542 and
        printer and fax purchased February 11, 2005, valued at $518 were
        disposed of on a date of "unknown" and with no description of disposal
        method.

   •	   A desk purchased February 11, 2005, valued at $600 did not include
        a disposal date or disposal method.


                                        16

   •	   Ten asset dispositions were disposed of on June 15, 2007, and the
        disposal location was described only as "Asotin County” or “Asotin Co."

   •	   Eight asset dispositions, including computer equipment and office
        furniture purchased between September 20, 2004, and August 11,
        2008, were recorded as disposed on July 24, 2009, through purchase
        by a former employee, but there was no record of the purchase
        amount.

   •	   One asset disposition of a digital copier, purchased January 29, 2003,
        for $9,470, was recorded as disposed “by people from whom we
        purchased new copier.”

   •	   Thirteen asset dispositions valued at $8,330 were recorded

        between 10 and 22 months from purchase.


   •	   Twelve chairs valued at $1,200 were recorded in one asset disposition
        by donation 22 months after being purchased.

   •	   A computer server was purchased March 24, 2009, and recorded as
        disposed January 21, 2010, less than 10 months after purchase.
        Unified Solutions officials stated the original server was acquired in
        January 2007 and may have been leased prior to purchase.

   •	   We were unable to locate an iPad on the asset disposal list, which
        Unified Solutions’ management stated broke, resulting in the purchase
        of a second iPad (the list of assets indicated these two iPads were
        located in Virginia).

       We interviewed three Unified Solutions personnel who work in
locations outside the Tempe, Arizona office and identified discrepancies with
regard to equipment assigned according to the asset list.

   •	   According to the asset list, a laptop, monitor, and printer was assigned
        to South Dakota; however, the employee assigned to South Dakota
        stated that they did not have a monitor or printer.

   •	   The asset list indicated that a Dell laptop purchased in 2009, an HP
        laptop purchased in 2010, monitor, and printer were assigned to
        Oklahoma; however, the employee assigned to Oklahoma stated they
        had a 2010 HP laptop for daily use and a 2005 Dell laptop as a backup,
        and that they did not have a monitor or printer.



                                        17

      In our review of grant expenditures, we identified two laptops that
were purchased in the same year for one employee. We determined the
laptops were allowable per grant budgets, but grant records did not identify
a disposal for the first laptop or any other reason for the purchase of the
second laptop. Unified Solutions officials stated the first laptop was not
purchased for the employee as reflected in the grant records, but was
instead purchased for general administrative grant management use.

      Based on the results of our review and analysis of asset monitoring
documents, we have determined that accountable property, asset, and
disposition lists are not recorded or reconciled in accordance with OJP
guidelines, and the Unified Solutions asset management system as a whole
needs improvement. The issues with the completeness, accuracy, and
consistency of Unified Solutions’ asset and equipment lists could be resolved
by use of one document that combines the content of the asset list and the
details noted in the equipment assignment list.

Reports

      We reviewed the Financial Status Reports (FSRs) and the Categorical
Assistance Progress Reports (Progress Reports), and found the FSRs were
submitted timely but were generally inaccurate. We determined Progress
Reports were generally submitted timely and appeared adequate in
presentation and content of required information.

Financial Status Reports

       For financial reporting prior to October 1, 2009, the OJP Financial
Guide states that FSRs should be submitted online no later than 45 days
after the last day of each quarter. The OJP Financial Guide also states that
effective for the quarter beginning October 1, 2009, instead of using FSRs,
grant recipients must report expenditures online using the Federal Financial
Report (FFR) no later than 30 days after the end of each calendar quarter.
We reviewed the five most recent FSRs submitted for each grant and found
they were timely. 3




       3
           The Office of Justice Programs changed from using SF-269 Financial Status Reports
(FSRs) to SF-425 Federal Financial Reports (FFRs), beginning October 1, 2009. For
consistency purposes, we use the term “FSR” throughout this report when discussing any
financial reports submitted by Unified Solutions for the audited grants.




                                             18

     According to the OJP Financial Guide, recipients shall report the actual
expenditures and unliquidated obligations incurred for the reporting period
on each Financial Report. As such, we also reviewed the four most recently
submitted FSRs for each grant for accuracy, as shown in Exhibit 6.

EXHIBIT 6: FINANCIAL STATUS REPORT ACCURACY
                        GRANT                              CUMULATIVE        DIFFERENCE
          FSR REPORT EXPENSES PER        CUMULATIVE       EXPENSES PER      BETWEEN FSRS
  FSR     PERIOD END ACCOUNTING         EXPENSES PER      ACCOUNTING        & ACCOUNTING
  No.        DATE      RECORDS             FSRS             RECORDS           RECORDS
 Grant No. 2005-VR-GX-0012
   1       3/31/08          $ 65,720      $    566,901      $    565,953        $       948
   2       6/30/08            70,744           637,645           636,697                948
   3       9/30/08            74,590           705,564           711,287            (5,723)
   4       12/31/08           38,074           750,000           749,361                639
 Grant No. 2006-MU-GX-0001
   1       9/30/09          $147,288      $1,522,954        $1,521,617          $     1,337
   2       12/31/09           66,000          1,599,153         1,587,617            11,536
   3       3/31/10              7,048         1,606,897         1,594,664            12,232
   4       6/30/10            13,104          1,620,000         1,607,768            12,232
 Grant No. 2008-MU-GX-0010
   1       12/31/10         $ 66,642      $    740,565      $    733,270        $     7,295
   2       3/31/11            72,769           812,951           806,039              6,912
   3       6/30/11           121,178           934,589           927,217              7,372
   4       9/30/11            82,553          1,017,275         1,009,770             7,504
 Grant No. 2009-MU-GX-K012
   1       12/31/10         $137,079      $    504,706      $    533,856       $(29,150)
   2       3/31/11           115,943           620,326           649,799        (29,473)
   3       6/30/11           169,008           788,684           818,807            (30,122)
   4       9/30/11           129,086           918,731           947,893            (29,162)
 Grant No. 2005-VR-GX-0012
   1       12/31/10         $101,173      $    488,362      $    490,244       $ (1,882)
   2       3/31/11            93,259           580,621           583,503             (2,882)
   3       6/30/11           150,963           732,553           734,467             (1,913)
   4       9/30/11           120,718           853,266           855,184             (1,918)
Source: OJP and Unified Solutions

       As shown in Exhibit 6, we determined that none of the FSRs accurately
reflected grant expenditures. Unified Solutions officials explained that
expenses are occasionally adjusted after FSRs are filed and journal entries
are made by Unified Solutions’ accountants or auditors at year end.




                                          19

Categorical Assistance Progress Reports

      According to the OJP Financial Guide, Progress Reports were due
semiannually on January 30 and July 30 for the life of the grants. We
reviewed the four most recent Progress Reports due for each grant, covering
the past 2 years or the last 2 years of the grant period if the grant has
ended.

EXHIBIT 7: CATEGORICAL ASSISTANCE PROGRESS REPORT HISTORY
       REPORT PERIOD
      FROM - TO DATES                DUE DATE    DATE SUBMITTED   DAYS LATE
 Grant No. 2005-VR-GX-0012
    01/01/09 - 02/28/09*             05/29/09       06/17/09         19
    07/01/08 – 12/13/08              01/30/09       02/10/09         11
    01/01/08 – 06/30/08              07/30/08       Unknown       Unknown
    07/01/07 – 12/31/07              01/30/08       01/30/08         0
 Grant No. 2006-MU-GX-0001
    07/01/10 – 09/30/10*             12/29/10       12/27/10         0
    01/01/10 – 06/30/10              07/30/10       07/29/10         0
    07/01/09 – 12/31/09              01/30/10       01/30/10         0
    01/01/09 – 06/30/09              07/30/09       08/10/09         11
 Grant No. 2008-VR-GX-0010
    01/01/11 – 06/30/11              07/30/11       07/29/11         0
    07/01/10 – 12/31/10              01/30/11       01/26/11         0
    01/01/10 – 06/30/10              07/30/10       07/29/10         0
    07/01/09 – 12/31/09              01/30/10       01/30/10         0
 Grant No. 2009-MU-GX-K012
    01/01/11 – 06/30/11              07/30/11       07/29/11         0
    07/01/10 – 12/31/11              01/30/11       01/25/11         0
    01/01/10 – 06/30/10              07/30/10       07/29/10         0
    07/01/09 – 12/31/09              01/30/10       01/30/10         0
 Grant No. 2009-VI-GX-0001
    01/01/11 – 06/30/11              07/30/11       07/29/11         0
    07/01/10 – 12/31/11              01/30/11       01/26/11         0
    01/01/10 – 06/30/10              07/30/10       07/29/10         0
    07/01/09 – 12/31/09              01/30/10       01/30/10         0
Source: Office of Justice Programs
*Final Report

      As shown in Exhibit 7, 3 of the 20 Progress Reports we evaluated were
submitted late. The late reports were submitted in 2009 for the two ended
grants; the reports for the three current grants were submitted timely. One
report due in 2008 for Grant No. 2005-VR-GX-0012 could not be located,
although OJP records did not indicate that the report was submitted late.




                                           20

      All Progress Reports we reviewed appeared to be acceptable in form
and content. The Progress Reports contained measured data and narrative
discussions of grant-funded programs, including types of services provided,
products created, and individuals helped. The Progress Reports contained
relevant statistical data and descriptions of progress made toward
accomplishing goals and objectives.

Program Performance and Accomplishments

      We reviewed programmatic details and accomplishments for the five
audited grants and determined the goals and objectives as stated by Unified
Solution personnel appeared to be consistent with the goals, objectives, and
requirements stated in the grant awards. For each grant, we determined
that performance measures appeared to be reasonable indicators for
evaluating actual performance. We determined Unified Solutions did not
conduct any specific self-assessments related to the effectiveness of specific
programs and outcomes; however, each grant program had an advisory
board for oversight of program function and effectiveness. Advisory boards
appeared to meet regularly and kept adequate records of discussion of
grant-funded programs.

       According to the award documentation, Grant No. 2005-VR-GX-0012
(Office for Victims of Crime FY2005 Training and Technical Assistance
Counseling for Crime Victims in Indian Country by Faith-Based
Organizations) was to support FY 2004 Faith-Based Counseling for Crime
Victims in Indian Country award recipients by providing culturally relevant
training and technical assistance (T&TA), using various collaborative models
to build partnerships between local victim assistance programs and the
faith-based community. We determined this grant was ended and closed,
but the grant-funded program was continued by another grant with the
same objectives (Grant No. 2008-VR-GX-0010). We reviewed the new grant
for consistency to goals and objectives.

      Grant No. 2006-MU-GX-0001 (Office for Victims of Crime FY2006
Training and Technical Assistance to Tribal Victim Assistance (TVA)
Grantees) stated the T&TA for TVA grantees was designed to assist victims
by enhancing the capacity of remote victim service providers to serve
victims and sustain the services developed. We determined this grant was
ended and closed, but the grant-funded program was continued by another
grant with the same objectives (Grant No. 2009-MU-GX-K012). We
reviewed the new grant for consistency to goals and objectives.

      Grant No. 2008-VR-GX-0010 (Office for Victims of Crimes FY2008
Training and Technical Assistance Counseling & Faith-Based Services for


                                      21

Crime Victims in Indian Country) stated this award was to provide the T&TA
needed to encourage and strengthen the collaboration between victim
services programs, traditional healers, and other faith-based clergy and to
provide comprehensive T&TA to ensure the successful establishment and
implementation of victim assistance programs in American Indian/Alaska
Native communities. We determined the goals and objectives as stated by
Unified Solutions personnel appeared to be consistent with the goals and
objectives stated in the grant award.

       Grant No. 2009-MU-GX-K012 (Office for Victims of Crime FY2009
Training and Technical Assistance to TVA Grantees) stated it was to provide
support for American Indian/Alaska Native (AI/AN) communities to improve
their ability to identify the needs of crime victims and the types of
victimization on which to focus; provide direct services to victims of crime;
and address the needs of unserved and underserved victims, particularly
those victimized by crimes such as child abuse, homicide, elder abuse,
driving while intoxicated, and gang violence. We determined the goals and
objectives as stated by Unified Solutions personnel appeared to be
consistent with the goals and objectives stated in the grant award.

       Grant No. 2009-VI-GX-0001 (Office for Victims of Crimes FY2009
Training and Technical Assistance for Children's of Justice Act (CJA)
Partnerships for Indian Grant Program) stated the goal was to provide
FY 2009 CJA grantees with hands-on T&TA that was culturally relevant, to
enhance their ability to improve the investigation, prosecution, and handling
of child abuse cases, especially cases of child sexual abuse, in a manner that
increases support for and lessens trauma to child abuse victims. We
determined the goals and objectives as stated by Unified Solutions personnel
appeared to be consistent with the goals and objectives stated in the grant
award.

       For all five grants audited, we observed that the grantee evaluated
performance using a combination of metric and narrative information, which
included summaries of program evaluations. We reviewed raw data related
to this information and the information in the progress reports. We
determined the performance measures appeared to be reasonable indicators
for evaluating actual performance. Each grant program was intended to
provide support services to tribal grantees, and we determined that Unified
Solutions was providing tribal grantees with instruction and support related
to management of their grants.

     We determined that Unified Solutions did not conduct any specific self-
assessments related to the effectiveness of specific programs and
outcomes. However, Unified Solutions personnel provided information on


                                     22

the advisory board for each grant program, including meeting agendas and
minutes. We reviewed meeting minutes for the advisory boards and
determined that program function and effectiveness was frequently
discussed. We determined that Unified Solutions personnel attend training
and technical assistance events as part of their primary function, as
required, to meet the objective of each of the grant programs.

       Unified Solutions also maintains a website (http://www.unified­
solutions.org) through which it discusses the impact that the grant programs
have had on the community through blogs, service and program
descriptions, support offerings, and publications. We received and reviewed
grantee program evaluations for each training and technical assistance
conference. Unified Solutions personnel review each individual evaluation
and create summary sheets of responses. We determined that the grantee
has not formally partnered with other agencies for the grant
programs; however, based on our reviews of program attendees, speakers,
evaluations, and reports, we found that Unified Solutions maintains close
relationships with the OVC and tribal grantees to provide the grant-funded
programs. Unified Solutions management stated the organization will be
unable to sustain the program after the grant expires, unless additional
future grants are received.

Compliance with Grant Requirements

      We reviewed the special conditions of the grant award for key
requirements for each of the five grants audited and two supplements for
each grant (15 total sets of special conditions). We determined most of the
special conditions for each grant and each grant supplement were met.
However, we identified three discrepancies related to noncompliance with
reporting requirements, which included one discrepancy each for the three
active grants.

      For Grant No. 2008-VR-GX-0010, the first supplement included a
requirement that the recipient submit semiannual payroll reports showing
actual time and attendance made per person to all employees whose salaries
are paid with OJP grant funds. We did not identify any payroll reports
submitted to OJP through GMS or in grant files, although we determined that
payroll records were maintained by Unified Solutions by pay period and that
Unified Solutions maintained salary histories for each employee.

      For Grant No. 2009-VI-GX-0001, the original award included a
requirement that the recipient submit semiannual payroll reports showing
actual time and attendance made per person to all employees whose salaries
are paid with OJP grant funds. We did not identify any payroll reports


                                    23

submitted to OJP through GMS or in grant files, although we determined that
payroll records were maintained by Unified Solutions by pay period and that
Unified Solutions maintained salary histories for each employee.

      For Grant No. 2009-MU-GX-K012, the original award included a
requirement that the recipient itemize and report attendee costs that are
paid or reimbursed with cooperative agreement funds, including meals and
incidental expenses, lodging, and transportation. Unified Solutions officials
stated that they were not aware of any reports that were sent or needed to
be sent to the OVC related to attendee costs. We did not identify any
attendee costs that were paid, thus no reports appeared to be required.

Monitoring Contractors

      According to the OJP Financial Guide, grantees should ensure that they
monitor organizations under contract to them in a manner that will ensure
compliance with their own overall financial management requirements,
although the Guide does not provide specific instructions for monitoring
compliance. The grant awards did not indicate any requirements for Unified
Solutions to monitor contractors.

      We determined that Unified Solutions uses consultants on a contract
basis. Consultants perform part-time staff roles, including Business Manager
and IT support. In addition to these roles, consultants were primarily used
as subject matter experts for training and technical assistance
programs. Unified Solutions officials stated that consultants were located
from past use and through the OVC recommendation. Consultants are
contracted by event and long term, and contracts specify deliverables,
timelines, and amounts to be paid.

      Unified Solutions officials stated that consultants were evaluated for
contractual performance through evaluation forms completed by training and
technical assistance program attendees, as well as through direct
observation by Unified Solutions personnel. Completed evaluation forms are
compiled, analyzed, and retained by Unified Solutions. Unified Solutions
regulations provide direction on staff oversight of contractors, which includes
monitoring and program evaluations.

      The OJP Financial Guide requires grantees to have a process in place
to ensure that contracts are not awarded to contractors or individuals
excluded from federal procurement programs. Lists of excluded contractors
are accessible at the Excluded Parties List System (EPLS) website. While
Unified Solutions’ monitoring of contractor performance appeared to be
adequate, we noted that most Unified Solutions staff we interviewed stated


                                      24

they had not heard of the EPLS, and none refer to EPLS when selecting
suppliers, consultants or contractors. Although we did not identify that
Unified Solutions hired any excluded contractors, Unified Solutions should
develop and implement procedures for use of the EPLS when selecting
suppliers, consultants, or contractors.

Grant Closeout

      Two grants had ended at the time of our audit. Grant
No. 2005-VR-GX-0012, ended February 28, 2009, and Grant
No. 2006-MU-GX-0001, ended September 30, 2010. Final FSRs and
Progress Reports had been submitted by Unified Solutions for each grant, as
noted in Exhibit 8. As required by the OJP Financial Guide, both grants were
administratively closed by OJP because no closeout package had been
submitted by Unified Solutions within 90 days of the grant end date.

EXHIBIT 8: GRANT CLOSEOUT
                                                                     FINAL
                                             FINAL                 PROGRESS
          GRANT NO.         END DATE   DRAWDOWN      FINAL FSR      REPORT
      2005-VR-GX-0012       02/28/09    09/24/08     02/13/09      08/06/09
      2006-MU-GX-0001       09/30/10    12/03/09     07/30/10      12/30/10
Source: OJP

      We did not identify any discrepancies in our verification of post end
date activities.

Recommendations

        We recommend that OJP coordinates with Unified Solutions to:

1.	     Ensure that Unified Solutions develops and implements procedures for
        accurate recording of drawdowns in the general ledger.

2.	     Ensure that Unified Solutions develops and implements procedures for
        accurate recording of expenditures in the general ledger.

3.	     Remedy the $62,976 in questioned costs due to expenditures that
        were unallowable.




                                       25

4.	    Remedy the $61,076 4 in questioned costs due to expenditures that
       lacked adequate support.

5.	    Remedy the $129,682 for expenditures in excess of the budget for
       Grant No. 2005-VR-GX-0012.

6.	    Remedy the $10,309 for expenditures in excess of the budget for
       Grant No. 2006-MU-GX-0001.

7.	    Ensure that Unified Solutions develops and implements policies and
       procedures to ensure consistent monitoring of expenditures in relation
       to budgeted amounts.

8.	    Ensure that Unified Solutions develops and implements policies and
       procedures to monitor equipment purchased with grant funds.

9.	    Ensure that Unified Solutions develops and implements policies and
       procedures for the disposal of equipment purchased with grant funds
       and maintains documentation of disposed items in accordance with the
       OJP Financial Guide.

10.	   Ensure that Unified Solutions develops and implements procedures for
       the submission of accurate FSRs.

11.	   Ensure that Unified Solutions develops and implements procedures for
       the consistent submission of timely Progress Reports.

12.	   Ensure that Unified Solutions develops and implements procedures for
       compliance with all grant special conditions.

13.	   Ensure that Unified Solutions develops and implements procedures for
       use of the Excluded Parties List System when selecting vendors,
       consultants, or contractors.




       4
         We identified four expenditures for Grant No. 2005-VR-GX-0012 that we found to be
unsupported and also unallowable under grant guidelines. Therefore, while unsupported
expenditures totaled $62,660, we subtracted $1,584 from the total amount to remove the
duplicated questioned costs.




                                           26

                                                               APPENDIX I

               OBJECTIVES, SCOPE, AND METHODOLOGY

      The purpose of this audit was to determine whether reimbursements
claimed for costs under the grant were allowable, supported, and in
accordance with applicable laws, regulations, guidelines, and terms and
conditions of the grant, and to determine program performance and
accomplishments. The objective of our audit was to review performance
in the following areas: (1) internal control environment, (2) drawdowns,
(3) grant expenditures, including personnel and indirect costs, (4) budget
management and control, (5) headcount and payroll testing, (6) property
management, (7) financial status and progress reports, (8) grant
requirements, (9) program performance and accomplishments,
(10) monitoring of contractors, and (11) grant closeout. We determined
that matching costs, indirect costs, program income, and subgrantees
were not applicable to this grant.

      We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that
we plan and perform the audit to obtain sufficient, appropriate evidence
to provide a reasonable basis for our findings and conclusions based on
our audit objectives. We believe that the evidence obtained provides a
reasonable basis for our findings and conclusions based on our audit
objectives. Our audit concentrated on, but was not limited to, the award
of grants on September 1, 2005, through December 31, 2011. This was
an audit of Training and Technical Assistance (T&TA) Counseling for Crime
Victims in Indian Country by Faith-Based Organizations Grant
No. 2005-VR-GX-0012 in the amount of $750,000 (including two
supplements); Tribal Victim Assistance T&TA Grant No. 2006-MU-GX-0001
in the amount of $1,620,000 (including two supplements); T&TA for
Counseling & Faith-Based Services for Crime Victims in Indian Country
Competitive Grant Program Grant No. 2008-VR-GX-0010 in the amount of
$1,150,000 (including two supplements); T&TA for Tribal Victim
Assistance Grant Programs Cooperative Agreement
No. 2009-MU-GX-K012 in the amount of $1,500,000 (including two
supplements); and Multidisciplinary Technical Assistance Project for CJA
Partnerships in Indian Country Grant No. 2009-VI-GX-0001 in the amount
of $1,500,000 (including two supplements). According to the Office of
Justice Programs, Unified Solutions had a total of $5,425,307 in
drawdowns through December 31, 2011.




                                     27

      We tested compliance with what we consider to be the most important
conditions of the grants. Unless otherwise stated in our report, the criteria
we audit against are contained in the Office of Justice Programs Financial
Guide and the award documents.

       In conducting our audit, we performed sample testing in four areas,
which were drawdowns, grant expenditures, payroll, and property
management. In this effort, we employed a judgmental sampling design to
obtain broad exposure to numerous facets of the grants reviewed, such as
dollar amounts or expenditure category. We identified samples of 452
drawdowns, 328 grant expenditures, 10 payroll periods, and 3 items of
accountable equipment. This non-statistical sample design does not allow
projection of the test results to the universes from which the samples were
selected.

      In addition, we reviewed the timeliness and accuracy of Financial
Status Reports and Progress Reports, evaluated performance to grant
objectives, and evaluated the grantee’s monitoring of consultants; however,
we did not test the reliability of the financial management system as a
whole.




                                     28

                                                                          APPENDIX II

                 SCHEDULE OF DOLLAR-RELATED FINDINGS

QUESTIONED COSTS 5                                 AMOUNT                    PAGE

Unallowable Direct Costs                            $62,976                     5

Unsupported Direct Costs                            $62,660                     5

Unallowable Budget Transfers
for Grant No. 2005-VR-GX-0012                      $129,682                    13

Unallowable Budget Transfers
for Grant No. 2006-MU-GX-0001                       $10,309                    13

Total Questioned Costs                            $265,627

Less: Duplicated Questioned Costs                 ($1,584)

TOTAL DOLLAR-RELATED FINDINGS                     $264,043




       5
          Questioned Costs are expenditures that do not comply with legal, regulatory or
contractual requirements, or are not supported by adequate documentation at the time of the
audit, or are unnecessary or unreasonable. Questioned costs may be remedied by offset,
waiver, recovery of funds, or the provision of supporting documentation.




                                            29

                                                 APPENDIX III
              SUMMARY OF UNALLOWABLE EXPENDITURES,

                 UNSUPPORTED EXPENDITURES, AND 

                MANAGEMENT IMPROVEMENT FINDINGS


  Total Unallowable Expenditures – All Grants:                                $ 62,976
  Total Unsupported Expenditures – All Grants:                                $ 62,660
           Total Questioned Costs – All Grants:                               $124,052

Grant No. 2005-VR-GX-0012
  Tested
Transaction   Transaction                                                      Amount
  Number         Date                               Reason                    Questioned
Unallowable Expenditures
     1          10/19/05     penalty fee                                        $    106
     2          12/10/05     employee simultaneously paid as contractor   6
                                                                                     800
     3          12/10/05     employee simultaneously paid as contractor   6
                                                                                     103
     4          12/10/05     employee simultaneously paid as contractor   6
                                                                                     549
     5          12/10/05     employee simultaneously paid as contractor   6
                                                                                     132
     6          12/16/05     Bonus                                                   141
     7          01/10/06     penalty fee                                              83
     8          02/21/06     Bonus                                                   522
    12          03/14/06     penalty fee                                              25
    20          12/22/06     Bonus                                                   288
    37          12/15/07     Bonus                                                   271
    38          12/15/07     Bonus                                                    89
                                                        Total Unallowable:      $3,110
Unsupported Expenditures
     2          12/10/05     no contract6                                       $    800
     3          12/10/05     no contract6                                            103
                                           6
     4          12/10/05     no contract                                             549
                                           6
     5          12/10/05     no contract                                             132
    10          03/01/06     inadequate documentation                                577
    11          03/01/06     inadequate documentation                               1,134
    21          04/03/07     inadequate documentation                               2,070
                                                        Total Unsupported:      $5,364
Management Improvement
    16          08/03/06     lacks proper authorization
    20          12/22/06     lacks proper authorization


         6
          This transaction was determined to be both unsupported and unallowable under
grant guidelines. The total amount questioned under this grant was reduced accordingly.




                                               30
  Tested
Transaction   Transaction                                             Amount
  Number         Date                           Reason               Questioned
    23         04/05/07     improper budget category
    51         04/03/08     improper budget category
                                  Grant No. 2005-VR-GX-0012 Total:     $6,890


Grant No. 2006-MU-GX-0001
  Tested
Transaction   Transaction                                             Amount
  Number         Date                           Reason               Questioned
Unallowable Expenditures
    30          09/30/07     exceeds allowable reimbursement           $   73
    39          12/15/07     Bonus                                         271
    40          12/15/07     Bonus                                         135
    41          12/15/07     Bonus                                         181
    42          12/15/07     Bonus                                         271
    45          01/29/08     exceeds allowable reimbursement                 9
    47          03/04/08     exceeds allowable reimbursement                 9
    48          03/28/08     exceeds allowable reimbursement                 9
    60          05/06/08     exceeds allowable reimbursement                 9
    63          07/15/08     exceeds allowable reimbursement               242
    67          07/27/08     exceeds allowable reimbursement               220
    73          10/24/08     exceeds allowable reimbursement               660
    75          11/14/08     exceeds allowable reimbursement               220
    79          12/27/08     Bonus                                         271
    80          12/27/08     Bonus                                         276
    81          12/27/08     Bonus                                         271
    83          01/10/09     exceeds allowable reimbursement               220
    84          01/10/09     exceeds allowable reimbursement               220
    86          02/23/09     exceeds allowable reimbursement               220
    89          04/05/09     exceeds allowable reimbursement               220
    90          04/05/09     exceeds allowable reimbursement               220
    92          05/04/09     exceeds allowable reimbursement               220
    94          05/04/09     Unbudgeted                                    493
    99          05/25/09     exceeds allowable reimbursement               220
    106         07/03/09     exceeds allowable reimbursement               220
    112         07/20/09     exceeds allowable reimbursement               220
    119         09/06/09     exceeds allowable reimbursement               220
    120         09/28/09     exceeds allowable reimbursement               220
    122         10/27/09     exceeds allowable reimbursement               110
    124         11/24/09     exceeds allowable reimbursement               110




                                          31

    Tested
  Transaction     Transaction                                                    Amount
    Number           Date                             Reason                    Questioned
      132           12/16/09      Bonus                                                  189
      133           12/16/09      Bonus                                                  271
      134           12/16/09      Bonus                                                   91
      135           12/16/09      Bonus                                                   89
      144           01/22/10      penalty fee                                            234
                                                           Total Unallowable:     $7,133
  Unsupported Expenditures
         31         11/17/07      inadequate documentation                       $       250
         32         11/17/07      inadequate documentation                               250
         33         11/17/07      inadequate documentation                               250
         34         11/17/07      inadequate documentation                               250
         35         11/17/07      inadequate documentation                               250
         36         11/17/07      inadequate documentation                               250
         55         04/23/08      inadequate documentation                               369
         96         05/16/09      inadequate documentation                                98
      102           06/01/09      exceeded contract allowance                            249
      163           06/21/10      inadequate documentation                           10,000
                                                          Total Unsupported:     $12,216
  Management Improvement
         31         11/17/07      lacks proper authorization
         32         11/17/07      lacks proper authorization
         33         11/17/07      lacks proper authorization
         34         11/17/07      lacks proper authorization
         35         11/17/07      lacks proper authorization
         36         11/17/07      lacks proper authorization
         46         02/19/08      invoice not marked as paid
      111           07/11/09      lacks proper authorization
                                          Grant No. 2006-MU-GX-0001 Total:       $19,350


  Grant No. 2008-VR-GX-0010
  Tested
Transaction     Transaction                                                       Amount
  Number           Date                               Reason                     Questioned
Unallowable Expenditures
    78           12/27/08      bonus                                                 $     271
    93           05/04/09      unbudgeted                                                  403
    95           05/11/09      exceeded contract allowance                               1,000
    129          12/16/09      bonus                                                           94
    130          12/16/09      bonus                                                           95



                                                32

  Tested
Transaction   Transaction                                                        Amount
  Number         Date                             Reason                        Questioned
    131        12/16/09     bonus                                                      92
    143        01/22/10     penalty fee                                               192
    165        06/27/10     unbudgeted                                                305
    168        06/27/10     unbudgeted                                                 51
    176        07/21/10     bonus                                                     186
    179        07/21/10     bonus                                                     129
    181        07/21/10     bonus                                                     163
    183        07/21/10     bonus                                                    1,237
    185        07/21/10     unbudgeted                                                351
    188        07/22/10     unbudgeted                                                 69
    192        07/23/10     noncompliance with vehicle rental policies                312
    231        09/30/10     noncompliance with vehicle rental policies                173
    234        10/06/10     penalty fee                                                10
    238        10/22/10     unbudgeted; invoice indicates 3rd party recipient          60
    242        11/01/10     unbudgeted                                                131
    250        12/16/10     bonus                                                     165
    252        12/16/10     bonus                                                    1,237
    254        12/16/10     bonus                                                     134
    256        12/16/10     bonus                                                     169
    261        12/16/10     bonus                                                     917
    285        07/12/11     unbudgeted                                                319
    291        08/19/11     noncompliance with vehicle rental policies                  9
    295        08/27/11     unbudgeted                                                242
    313        11/03/11     unbudgeted                                               2,589
    321        12/09/11     bonus                                                    2,640
    322        12/09/11     bonus                                                     231
                                                           Total Unallowable:    $13,973
Unsupported Expenditures
    101        06/01/09     exceeded contract allowance                          $    204
    150        04/07/10     inadequate documentation                                 1,044
    195        07/26/10     inadequate documentation                                 2,742
    196        07/26/10     inadequate documentation                                 2,742
    212        08/06/10     inadequate documentation                                 1,686
    218        08/10/10     inadequate documentation                                  190
    219        08/10/10     inadequate documentation                                   48
    269        04/01/11     inadequate documentation                                  826
    274        05/01/11     inadequate documentation                                 1,296
    309        10/06/11     inadequate documentation                                 2,205
    311        10/26/11     inadequate documentation                                  120



                                            33

  Tested
Transaction   Transaction                                                          Amount
  Number         Date                               Reason                        Questioned
                                                             Total Unsupported:     $13,102
Management Improvement
    137         12/26/09    lacks proper authorization
    229         09/23/10    second laptop purchase for employee in one year
    261         12/16/10    self-approved
    269         04/01/11    lacks proper authorization
    285         07/12/11    no authorization for purchase
                                          Grant No. 2008-VR-GX-0010 Total:          $27,075


  Grant No. 2009-VI-GX-0001
  Tested
Transaction   Transaction                                                          Amount
  Number         Date                              Reason                         Questioned
Unallowable Expenditures
    121        10/27/09     exceeds allowable reimbursement                         $    110
    123        11/24/09     exceeds allowable reimbursement                              110
    125        12/16/09     bonus                                                         81
    126        12/16/09     bonus                                                         91
    127        12/16/09     bonus                                                        176
    128        12/16/09     bonus                                                         89
    139        01/10/10     exceeds allowable reimbursement                              110
    141        01/18/10     exceeds allowable reimbursement                              120
    145        03/07/10     exceeds allowable reimbursement                              120
    147        03/27/10     exceeds allowable reimbursement                              120
    164        06/27/10     unbudgeted                                                   296
    167        06/27/10     unbudgeted                                                    49
    174        07/21/10     bonus                                                       1,041
    175        07/21/10     bonus                                                        180
    178        07/21/10     bonus                                                         65
    184        07/21/10     unbudgeted                                                   341
    187        07/22/10     unbudgeted                                                    67
    191        07/23/10     noncompliance with vehicle rental policies                   302
    230        09/30/10     noncompliance with vehicle rental policies                   168
    233        10/06/10     penalty fee                                                   14
    237        10/22/10     unbudgeted; invoice indicates 3rd party recipient             79
    241        11/01/10     unbudgeted                                                   175
    248        12/16/10     bonus                                                       1,132
    249        12/16/10     bonus                                                        220
    253        12/16/10     bonus                                                         67



                                             34

  Tested
Transaction   Transaction                                                         Amount
  Number         Date                              Reason                        Questioned
    260         12/16/10    bonus                                                      1,223
    284         07/12/11    unbudgeted                                                  425
    292         08/19/11    noncompliance with vehicle rental policies                   78
    294         08/27/11    unbudgeted                                                  323
    312         11/03/11    unbudgeted                                                 3,452
    316         12/09/11    bonus                                                       710
    317         12/09/11    bonus                                                      1,658
    318         12/09/11    bonus                                                      2,468
    319         12/09/11    bonus                                                       634
    320         12/09/11    bonus                                                       231
                                                            Total Unallowable:     $16,524
Unsupported Expenditures
    149         04/07/10    inadequate documentation                               $   1,044
    154         04/24/10    inadequate documentation                                    500
    161         05/04/10    inadequate documentation                                    900
    194         07/26/10    inadequate documentation                                   2,661
    210         08/06/10    inadequate documentation                                   1,637
    216         08/10/10    inadequate documentation                                    190
    217         08/10/10    inadequate documentation                                     41
    268         04/01/11    inadequate documentation                                   1,101
    273         05/01/11    inadequate documentation                                   1,728
    308         10/06/11    inadequate documentation                                   2,940
                                                         Total Unsupported:        $12,742
Management Improvement
    136         12/26/09    lacks proper authorization
    240         10/26/10    lacks proper authorization
    260         12/16/10    self-approved
    268         04/01/11    lacks proper authorization
    284         07/12/11    no authorization for purchase
                                         Grant No. 2009-VI-GX-0001 Total:          $29,266



   Grant No. 2009-MU-GX-K012
  Tested
Transaction   Transaction                                                         Amount
  Number         Date                           Reason                           Questioned
Unallowable Expenditures
    140        01/10/10     exceeds allowable reimbursement                        $    110
    142        01/18/10     exceeds allowable reimbursement                             100




                                             35

  Tested
Transaction   Transaction                                                        Amount
  Number         Date                            Reason                         Questioned
   146         03/07/10     exceeds allowable reimbursement                           100
   148         03/27/10     exceeds allowable reimbursement                           100
   153         04/24/10     exceeds allowable reimbursement                           220
   162         05/31/10     exceeds allowable reimbursement                           220
   166         06/27/10     unbudgeted                                                296
   169         06/27/10     unbudgeted                                                 49
   170         07/13/10     exceeds allowable reimbursement                           220
   171         07/20/10     exceeds allowable reimbursement                           220
   172         07/21/10     bonus                                                    1,041
   173         07/21/10     bonus                                                     538
   177         07/21/10     bonus                                                     180
   180         07/21/10     bonus                                                     129
   182         07/21/10     bonus                                                     163
   186         07/21/10     unbudgeted                                                341
   189         07/22/10     unbudgeted                                               1,160
   190         07/22/10     unbudgeted                                                 67
   193         07/23/10     noncompliance with vehicle rental policies                302
   215         08/09/10     unbudgeted                                                900
   224         08/31/10     exceeds allowable reimbursement                           220
   232         09/30/10     noncompliance with vehicle rental policies                168
   235         10/06/10     penalty fee                                                14
   236         10/09/10     noncompliance with vehicle rental policies                 34
   239         10/22/10     unbudgeted; invoice indicates 3rd party recipient          82
   243         11/01/10     unbudgeted                                                179
   251         12/16/10     bonus                                                     226
   255         12/16/10     bonus                                                     134
   257         12/16/10     bonus                                                     169
   258         12/16/10     bonus                                                    1,163
   259         12/16/10     bonus                                                     570
   262         12/16/10     bonus                                                    1,257
   286         07/12/11     unbudgeted                                                437
   293         08/19/11     noncompliance with vehicle rental policies                310
   296         08/27/11     unbudgeted                                                332
   314         11/03/11     unbudgeted                                               3,548
   323         12/09/11     bonus                                                    2,515
   324         12/09/11     bonus                                                    1,208
   325         12/09/11     bonus                                                    1,658
   326         12/09/11     bonus                                                     634
   327         12/09/11     bonus                                                     683



                                             36

  Tested
Transaction   Transaction                                                         Amount
  Number         Date                            Reason                          Questioned
   328         12/09/11     bonus                                                       238
                                                            Total Unallowable:     $22,236
Unsupported Expenditures
   151         04/07/10     inadequate documentation                               $   1,076
   197         07/26/10     inadequate documentation                                   2,661
   198         07/26/10     inadequate documentation                                   2,661
   202         08/02/10     inadequate documentation                                   2,452
   204         08/02/10     inadequate documentation                                   2,588
   213         08/06/10     inadequate documentation                                   1,637
   220         08/10/10     inadequate documentation                                    190
   221         08/10/10     inadequate documentation                                     41
   270         04/01/11     inadequate documentation                                   1,132
   275         05/01/11     inadequate documentation                                   1,776
   310         10/06/11     inadequate documentation                                   3,022
                                                         Total Unsupported:        $19,235
Management Improvement
   138         12/26/09     lacks proper authorization
   262         12/16/10     self-approved
   270         04/01/11     lacks proper authorization
   276         05/02/11     lacks proper authorization
   286         07/12/11     no authorization for purchase
                                    Grant No. 2009-MU-GX-K012 Total:              $41,471




                                             37

                                                                                                       APPENDIX IV

    UNIFIED SOLUTIONS’ RESPONSE TO DRAFT REPORT




®y
US'TCTlC I
                  UNIFIED SOLUTIONS
                  TRIBAL COMMUNITY DEY E LOPME NT GROUP, I NC .
                  Ar)[)RI'SS:
                  2164 E BRO".,WAY RD
                  Svm:200
                  T~ .. ..:, AZ8S1~2- 1 %1
                                             BllLL~(lADJ)R£SS:
                                             POBox 90020
                                             TvCW!'. AZ85752·0020
                                                                    TOLLFlt££
                                                                    877-438-4400
                                                                                   FAX
                                                                                   480-966-35»9
                                                                                                  W~~srre:
                                                                                                  www ,wlifi.d-r.olutioos.wg




    September 26, 2012

    David M, S h~ crc:n
    Regional Audil IvlruJager
    txnvcr Regional Aud it Office
    Office o f Ihe In~pc clor General
    U.S. Do!pmtment of Justice
    1120 Linco ln, Suile 1500
    Denver, CO &0203

    RE: Unific<l Solutions Tribal Community Development Group, Tnc.

    Dear " oI r. Sheeran:

             Attached please find Unified Solutions response to the Recommendations and Findings

    of the Audit of th e Otlicc of Justice Programs, Ollicc for Victims of Crime Grants Awarded to

    Unified Solutions Tribal Communi ty Development Group, Inc. , in Tempe, Ari zona

    1l1ank you for th e opportunity to respond to this report.

    Sincerely,




    Stanley L. Pryor
    Exec uti ve Director
    Email : stan@unified-solutions.org




                   "Building capacity through eda cation. 'rai"ing a"d rUourCt! $Uppo.·" ·




                                                            38

     UNIFIED SOLUTIONS TRIBAL COMMUNITY DEVELOPMENT GROUP, INC.
        RESPONSE TO THE RECOMMENDATIONS AND FINDINGS OF THE
    AUDIT OF THE OFFICE OF JUSTICE PROGRAMS, OFFICE FOR VICTIMS OF
    CRIME GRANTS AWARDED TO UNIFIED SOLUTIONS TRIBAL COMMUNITY
               DEVELOPMENT GROUP, INC., TEMPE, ARIZONA

I. Ensure that Unified Solutions develops a nd implements procedures for accurate recording of
  drawdOWlls in the gcnerallcd ger.

Unified Solutions (Unified) ackllQwledges that drawdowllS were not accurately recorded in the past.
However, Unified now ha~ procedures in place that a llow for accurate recording of drawdowns_ At the
end of each week, the Business Manager sends a spreadsheet listing all payables, divided by grant, to the
Executive Director. Anached to that spreadsheet is a "!;lUld Wit hdrawal Request" (see anachment A· I )
that lists the grant, the grant number, the amount of the draw, the date the money was drawn, the date the
money was received in the bank and the date the amount was posted into the accolUlting system. This
fonn is first signed by the Executive Director when the payables are submined to him, signed by the
Business Manager when the funds are received and entered into the account program and then by the
Treasurer after a review of the attachments.

Out of 444 transaction draws listed on the GMS system between 5116/09 and 8/22112, the OIG audit
identified five bookkeeping errors _ One identified in 20 11 as not having been entered in the accounting
records was found to actually be in the accounting system and recorded on 12/ 15/ 11. The other "four"
were actually two erroI'3 as thc samc wnowlt was postcd incorrectly. 1113t error has becn corrected. k;
mentioned above, the new process will ensure accurate recording of the drawdowns in the general
ledger.

2. Ensure that Unified Solutions de\"elops a nd implements procedures for accurate recording of
   expenditures in the ge neral ledger.

Unified Solutions does its best to maintain accurate procedures for recording of expenditures in the
general ledger. The Business MWlager or Unified's Certified Public Acco untant (CPA) reconciles
accounts and a full complete audit is done by DeVries, CPA, on a yearly basis and submitted to avc.
Unified acknowledges Ihat thcre have bccn issues in the past with expenditures not being accurately
recorded that have had to be corrected during the audit, and is working to implement bener procedures
to ensure that the expenditures are recorded by the Business Manager and then reviewed by the outside
CPA finn during the ycar so that these items will not need to be corrected during thc audit.

3. Remedy the S62,976 in questioned costs due to e.xpenditures that ",·ere unaUowable.

Unified Solutions does not agree with the amount of questioned costs in this find ing. Please see the
attac hed sehedulc (attachment A·2) showing our analysis of all of the findings in this area with our
explanation below each catcgory and additional support for somc of the expenditurcs that were in fact
properly supported and allowed. We do agree with certain questioned costs such as the penalties being
disallowed and have adopted bener procedures for identifying those costs that are not allowable under
OMIl Circular A·1 22 and either finding othcr ftmds to pay for them or avoiding those coots altogether.
k; you are awarc, Unified docs not typically have other fundin g sources, but exists almost solely to
conduct the programs under t hese OVC grants _ For us now to come up with past.disallowed costs
wo uld put a serious constraint on the ability for Unified to continue and we sincerely ask that you
consider waiving thcse older disallowed costs with our assurance that we will no longe r charge these


                                               Page 1 of5




                                                   39

     UNIFIED SOLUTIONS TRIBAL COMMUNITY DEVELOPMENT GROUP, INC.
        RESPONSE TO THE RECOMMENDATIONS AND FINDINGS OF THE
    AUDIT OF THE OFFICE OF JUSTICE PROGRAMS, OFFICE FOR VICTIMS OF
    CRIME GRANTS AWARDED TO UNIFIED SOLUTIONS TRIBAL COMMUNITY
               DEVELOPMENT GROUP, INC., TEMPE, ARIZONA

costs to the grants in the future . We will also ensure that any consultants andlor staITwho handle the
financial matters for Unified are fully trained in OMS Circular A- 122 Cost Principles as well as OM8
Circular A-II 0 compliance procedures, so that things of this nature do not occ ur again.

4. Remedy the S61,076 in questioned costs due to expenditu res that lacked adequate support.

Unified Solutions does not agree with the amount of questioned costs in this finding.
Please see the attached schedul e (attachment A-2) showing our analysis of all of the findings in this area
wit h our explanation below each category and additional support for some of the expenditures that were
in fact properly supported and therefore allowable. We do still have a few quest ioned costs that were
not supported and t hose are marked as such. However, Unified has adopted better procedures for
supportin g costs as is required under OMS Circular A-I l2 to ensure that al l appropriate support is fully
maintained. As you are aware, Unified does not typically have other funding sources, bIn exists almost
solely to conduct the programs under these OVC grants. For us now to come up with these past
questioned costs would put a serious constraint on the ability for Unified to continue and we si nce rely
ask that you consider waiving these older quest ioned costs with our assurance that we will fully support
all costs to the grants in future. We will also ensure that any consultants and/or staff who handle the
financial matters for Unified are fully trained in OM8 Circular A-122 Cost Principles as well as OM8
Circular A-II 0 compliance procedures, so that things of this nature do not occur again.

5. Remedy the $129,682 for expenditures in excess of hud get for Grant No. 200S-VR-GX-OOI2.

Unified Solutions docs not agrcc with thc dollar amount in excess ofbudgct for this finding. Sce
attached spreadsheet (attachment A-2) showing analysis of budget to actual costs in summary for the
total grant (summary tah) as well as detail for each grant period. As yo u can see from the summary tab,
we have reclassified thc travel costs from where they were misclassified in the QuickBooks file under
both the (;onsultants/co ntracts and other costs catcgories. Howeve r, evcn by do ing that, we acknowledge
that we are still oyer budget in contractual/consultant as well as now in Supplies and in Trayel. The
main issue was that instead of hiring staff that would haye been charged under personnel and fringe
bencfit costs, we contractcd with consultants and other contract staiTto assist us with pro viding the
services. Unfortunately, at the time stafl'was unaware of the requirement to get a revision to the budget
when costs need to be adjusted by line item, as they ~hould havc been in this casco We kept looking at
th e budget in total for each year and knew that we were within the 10% in total, without looking at each
separate line item. We will ensure that an y amendments to each and e,'ery line item in t he budget are
fully approved by O VC prior to each year-end within each con tract in accordance with OM8
compliance rcgulations.

6. Rt'lIledy the $1U,309 fo r ex pt'nditUl'CS in t'xccss of bud get for Gra nt No. 2006-MU-CX-UOOl.

Unified Solutions docs not concur with this finding.

Although the P&L (attachment A -3) for this gr'dnt, 2006·MU-GX-OOOI (TVA#2) does indicate the total
und er Conlractuaifcoru;ultants to be $373,125.22, th is section also includes consultant tmvcl in the



                                                Page 2 of5




                                                    40

     UNIFIED SOLUTIONS TRIBAL COMMUNITY DEVELOPMENT GROUP, INC.
         RESPONSE TO THE RECOMMENDATIONS AND FINDINGS OF THE
    AUDIT OF THE OFFICE OF JUSTICE PROGRAMS, OFFICE FOR VICTIMS OF
    CRIME GRANTS AWARDED TO UNIFIED SOLUTIONS TRIBAL COMMUNITY
               DEVELOPMENT GROUP, INC., TEMPE, ARIZONA

amount of$103,264.85. Our P&L was set up to follow consultant expenses undcr this catcgory. This
would put us OVer in this category in the runomll of $50,909.37 once the tmvel was subtracted. Under
"Other Costs", the total figure of $285,984.32 also contains lodging of $ II ,699.32 under
"AdvisorylPlalUling ~·lccting" and $11,695.53 for lodging under "AlUlual Conference: Room RcntaVAV
Services". Lodging has since been changed over to the section Imder "Travel". 'Ibese two figures
~ubtracted from the total of "Other Costs" l eave~ a surplus in this category of $5,260. 53. The total of
thcse figures is $45,648.84, which is undcr the 10% allowable.

7. Ensu re t hat Un.ilial Solutioos de\'clops and implement.s policies and proced ures to ensure
   consistent monitoring or cxpenditu res in relation to budgeted a mounts.

As noted above, Unified agrees that there should have bcen a consistent monitoring of expenditures in
relation to budgetcd amounts. As such, wc have implemcnted procedures whcrcby finan cial consultants
will prepare a budget to actual re port for each line item of the budget for each grant that will then be
reviewed by the Executive Director. Any eonsiderdtion for revisions to the budget line item categories
will be submitted to OVC to ensure that approval for those revisions is obtained.

8. Ensu re tha t Un.ilial Solutions de\'clops and implement.s pOlicies a nd procedu res to monitor
   equipment purch ased with grant runds.

Unified Solutions has an inventory list with the purchase date of the item, description, where it is located
and whcre it was disposcd of, and whcn. The grant funds used to purchase the item were not on the
inwntory list because we thought it was adequate to access that information was obtainable through
Quickl3ooks, Unified's accounting system. However, as in accordance with OMB compliance
regulations, Unificd will update its cquipmcnt list to show which funding sources paid fOf all equipmcnt.
In addition. at least every two years Unified will perfonn a physical inventory of all equipment
purchased with grant funds and will revise where the eCjuipment is located.

9. Ens ure tha t Unified Solution s denlops and implements policies a nd proced ures ror the disposal
   or equipment purchased wit h grant runds a nd maintain documentation or disposed items in
   accorda nce with the DIP FiJl(lIIciul Guide.

Unified concur.; that it did not obtain pcnnission from a vc in the past for any asset disposals as in
accordance with OMS Compliance rcquirements and the OJP FimulCial Guide. Instead, equipmcnt that
was no longer usable was disposed of and other arnUigements were made that the Board detennined was
an aceeptable way of disposing of the assets. In the future, however, Unified will ensure that it complies
wilh OMS compliance regulations and the OlP Financial Guide in disposing of all equipment.

Specifically referenced in the OIG draft report was the disposal of eCjuipment to "Asotin" or "Asotin
County". lllCfe was a Closing Agreement bctween Unified Solutions and thc Asotin County
Commissioner's Office relative to a satellite offi ce we maintained at William Clark Plaza in Clarkston,
WA. 'Ihe agreement dated June 8, 2007 is attached (see attachment A-36). The agreement stated that
Asotin County would assume lease paymcnts (two months early), along with utility payments, in


                                                Page 30f5




                                                    41

     UNIFIED SOLUTIONS TRIBAL COMMUNITY DEVELOPMENT GROUP, INC.
         RESPONSE TO THE RECOMMENDATIONS AND FINDINGS OF THE
    AUDIT OF THE OFFICE OF JUSTICE PROGRAMS, OFFICE FOR VICTIMS OF
    CRIME GRANTS AWARDED TO UNIFIED SOLUTIONS TRIBAL COMMUNITY
               DEVELOPMENT GROUP, INC., TEMPE, ARIZONA

exchange for the existing fumishings and cquipmcnt on thc prcmises. This agrcemcnt eliminatcd the
cost of shipping fumiture back to Arizona and paying a lease for another two months after the office was
closed. 'Ibe description of the assets disposal is abbreviated; however, back-up is available in the
inventory filc maintained by the Busincss Manager.

'Ine OIG draft report also rcferen(;ed items sold to a fonner employee. Although the sale price is not
listed on the invcntory list, the amount is listed in QuickBooks and was deductcd from thc employee's
paycheck on 7/241 Money from this sale went back into the grant funds.
                   09.

Repairing thc digital copicr rcferred to in the OIG draft rcport as purchascd January 29, 2003 was not
cost feasible. When Unified purchased the new copier from AriZona Office TeclUiologies, they agreed to
dispose ofthc digital copier for Unified. 'Ibe Business Manager added Arizona Office Ttthnologies to
the asset disposal list.

10. Ensure that Unified Solutions de\'elops and implements procedures for t he submission of
accu rate FSR'l.

Unified acknowledges that FSRs wcre not always accurate. Much of this occurred beeause adjustments
were made in onc period for costs in a differcnt period by fUiancial consultants who were lUlaware of the
impact of these improperly dated adjustments. Unified will ensure every effort is made to file accurate
FSRs in the future.

In summary, all "Cumulative Expenses per Accounting Records" are going to include adjustments and
depreciation entered by Unified's CPA and Unified's auditor for September and October of each year­
the end of one year and the beginning ofthe next fiscal year. None of thcse adjustments was taken into
account in OIG Exhibit 6. Depreciation and adjustments were not taken into account for "Grant
Expenses per AceOlmting Records" in most cases. Adjustments are also made in-house to accollnt for
voided or lost checks and expenses that were not available until after the FSR was filed. In-house
changes are also made when errors are fOIUid and then corrected.

t t. Ensure that Unified Solutions develops and implements procedu res for the consistent
snbmission oftimcly Progress Reports.

Unificd concur:; that progress report(s) were late in 2009 due to the fonner Executi\,c Director's terminal
illness. However, as stated on page 19 of the OIG draft report "We detemline Progress Reports were
generally submitted timely and appear adequate in presentation and content of required infonnation",
Unified has submitted all Progress Rcports on time follow ing guidelincs established by the current
Executive Director and believes that it currently has good procedures to continue to ensure consistent
submission of Progress Reports OIl a timely basis.




                                                Page 4 0f5




                                                    42

     UNIFIED SOLUTIONS TRIBAL COMMUNITY DEVELOPMENT GROUP, INC.
         RESPONSE TO THE RECOMMENDATIONS AND FINDINGS OF THE
    AUDIT OF THE OFFICE OF JUSTICE PROGRAMS, OFFICE FOR VICTIMS OF
    CRIME GRANTS AWARDED TO UNIFIED SOLUTIONS TRIBAL COMMUNITY
               DEVELOPMENT GROUP, INC., TEMPE, ARIZONA

12. Ensure that Ullificd Solutions dC\'clops a nd implcmcnts proced ures for complia ncc with all
grant spedal conditions.

Unified concur:; Ihat onc specific spccial condition stated in the fir:;t supplement for grant No. 2008-VR­
OX-OOlO and Qriginal award for Orant No. 2009- VI-OX-ooO I requiring semi-annual payroll reports
~ubmis~ion to OJP through GMS did nOI occur. 'Ihe fonner Executive Director died in November of
2009 and Ihc special condition requiring this report wa:; nol provided 10 thc Business Manager or Interim
Executive DirectQr. All other special conditions are followed and thai specific requirement WilS not
mandated in prior special condilion~, thus we believe Ihat we do ha ve sufficient proced ures for
compliancc with all grant special conditions.

13. Ensure that Unified Solutions de\'elops a nd implements proc-ed nres f OJ" use o f the Kxcluded
Parties List Systcm (EPLS) whcn sclecting vc ndors, consulta nts, OJ" cont ractors.

Unified concur.; with this finding. Unified has developed a fonn and prolocolto insure the EPLS is used
and documented when selecting ve ndor:;, consultants and contractor.; in all futurc activities (see
attachment AA).




                                               Page 50f5




                                                   43

                                                                                                  APPENDIX V

OFFICE OF JUSTICE PROGRAMS’ RESPONSE TO DRAFT REPORT

                                                       U.S. Department of J ustice

                                                       Office ofJustice Program!>

                                                      Office ofAudit, Assessment, and Management



                                                      W,,$hi"l"on D.C lOBI

       OCT -9 2012


   MEMORANDUM TO:                 David M . Sheeren
                                  Regional Audit Manager
                                  Denver Regional Audit Office
                                  Office oflhe Inspector General

   FROM:                          Maureen A. HelUleberg
                                  Direeto~~y
   SUBJECT:                       Response to the Draft Audit Report, Audit of/he Office ofJustice
                                  Programs' Office for Victims of Crime Grant.)· Awarded 10 Unified
                                  Solutions Tribal Community Development Group, Inc.,
                                  Tempe, Arizona

   This memolWldum is in response to your correspondence, dated August 23, 2012, transmitting
   the subject draft audit report for Unified Solutions Tribal Community Development Group, Inc.
   (UnifIed Solutions). We consider the subject report resolved and request written acceptance of
   this action from your office.

   The draft audit report contain~ 13 recommendations and $264,043 in questioned costs.
   l bc following is the Office of Justice Programs' (OJ}') analysis o f the draft audit report
   recommendations. For ease ofrcview, the recommendations are restated in bold and are
   followed by our response.

    I. We recommend that OJP cnsure that Unified Solutions develo ps and implements
       proccdures for accurate recordi ng of drawdowns in the general ledger.

       OJP agrees with the recommcndation, We will coordinate with Unified Solutions to obtain a
       copy of procedures implemented to ensure accurate recording of grant dmwdovms in their
       general ledger.

    2. We recommend tbat OJP ensure that Unified Solutions develops a nd implements
       procedures for accura te recording of Clpenditures in the general led ge r.

       OJP agrees with the recommendation. We will coordinate with Unified Solutions to obtain a
       copy of procedures implemented to ensure that grant expenditures arc accurately recorded in
       their general ledger.




                                                    44

3. We recommend that OJP remedy the $62,976 in questioned costs due to expenditures
   that were unallowable.

   OIP agrees with the recommendation. We will coordinate with Unified Solutions to remedy
   the $62,976 in questioned costs identified as unallowable. If adequate documentation carma!
   be provided to demonstrate that the costs were allowable, we will request that Unified
   Solutions return the funds to the U.S. Department of IIL~tiee (D01), adj ust their accounting
   records to remove the costs, and submit a revised final Federal Financial Report (FFR) fo r
   each grant.

4. We recommend that OJP remedy the 561,076 in questioned costs due to expenditures
   that lacked adequate support.

   OIP agrees with the recommendation. We will coordinate with Unified Solutions to remedy
   the $6 1,076 in questioned costs, related to expenditures that lacked adequate support. If
   adequate supporting documentation cannot be provided, we will request that Unified
   Solutions return the funds to the DOJ, adjust their accounting records to remove the costs,
   and submit a revised finall;FR for each grant.

5. We recommend that OJP remedy the $129,682 for expenditures in excess of the budget
   for Grant Number 2005-VR-GX-0012.

   OJP agrees with the recommendation. We will coordinate with Unifi ed Solutions to remedy
   the $129,682 in questioned costs for Grant Number 2005-VR-GX-OOI2, related to
   expenditures in excess of the grant budget. If adequate documentation cannot be provided,
   we will requcst that Unified Solutions return the funds to the DOJ, adjust their accounting
   records to remove the costs, and submit a revised final FFR for the grant.

6. We recommend that OJP remedy the $10,.109 for expenditures in excess of the hudget
   for Grant Number 2006-MU-GX-OOOI.

   OJP agrees with the recommendation. We will coordinate with Unified Solutions to remedy
   the S I0,309 in questioned costs for Grant Number 200S-MU-GX-OOOI, related 10
   expenditures in excess of the grant budget. If adequate documentation cannot be provided,
   we will request that Unified Solutions return the funds to thc DOJ, adj ust their accounting
   records to remove the costs, and submit a revised final FFR for the grant.

7. We recommend that O.JP ensure that Unified Solutions develops and implements
   policies and procedures to ensure consistent monitoring of expenditures in relation to
   budgeted amounts.

   OlP agrees with the recommendation. We will coordinate with Unified Solutions to obtain a
   copy of policies and procedures implemented to ensure the consistent monitoring of
   expenditures in relation to budgeted anlOunts.




                                               45

8. We recommend that OJP ensure that Unified Solutions develops and implements
   policies and procedures to monitor cquipmcnt purchased with grant funds.

   OJ1' agrees with the recommendation. We will coordinate with Unified Solutions 10 obtain a
   copy of policies and procedure.<; implemented to monitor equipment purchased with Federal
   grant funds.

9. We recommend that OJP ensure that Unified Solutions develops and implements
   policies and procedures for the disposal of equipment purchased with gr.ant funds • .and
   m.aiutaius doeumcnt.ation of disposed items in accordance witb thc OJP Financial
   Guide.

   OlP agrees with the recommendation. We will ooordinate with Unified Solutions to obtain a
   copy of policies and procedures implemented for the disposal of equipmenl purchased with
   Federal grant funds, and maintains documentation of disposed items in accordance with the
   OJP Financial Guide.

10. We recommend that QJP ensure that Unified Solutions develops .and implements
    procedures for the submission of accurate FFRs.

   Ol P agrees with the recommendation. We will coordinate with Unified Solutions to obtain a
   copy of procedures implemented to ensure that FFRs arc accurately submitted.

11. We recommend that OJP ensure that Unified Solutions develops and implements
   procedures for the consistent submission of timely Progress Reports.

   OJP agrees with the recommendation. We will coordinate with Unified Solutions (0 obtain a
   copy of procedures implemented 10 ensure that Progress Reports arc timely submitted.

12. We recommend that OJP ensure that Unified Solutions develops and implements
    procedures for compliance with all grant special conditions.

   OlP agrees with the recommendation. We will coordinate with Unified Solutions to obtain a
   copy of procedures implemented to ensure compliance with all grant special conditions.

13. We recommend that OJP ensure that Unified Solutions develops and implements
    procedures for use of the Excluded Parties Lid System when selecting vendors,
    consultants, or contractors.

   OlP agrees '-'lith the recommendation. We will coordiffilte with Unified Solutions 1 obtain a
                                                                                       0
   copy of procedures implemented to ensure that the Excluded Parties List System is used
   when selecting vendors, consultants, or contractors.




                                               46

Wc apprcciate the opportlUlity to review and comment on the draft audit report. If you have any
questions or require additional infonnation, please contact Jeffery A. Haley, Dcputy Director,
Audit and Review Division, Oil (202) 616-2936.


cc:    Jeffery A. Haley
       Deputy Director, Audit and Review Division
       Office of Audit, Assessment, and Management

       Joye E. Frost
       Acting Director
       Office for Victim.~ of Crime

       James Cantrall
       Deputy Director
       Office for Victims of Crime

       Dennis Greenhouse
       Deputy Director
       Office for Victims of Crime

       Christopher Holloway
       Lead Victim Justice Program Specialist
       Office for Victims of Crime

       Louise Duhamel, Ph.D.
       Acting Assistant Director, Audit Liaison Group
       Internal Review and Evaluation Office
       Justice Management Division

       OJP Executive Secretariat
       Control Number 201 21435




                                                47

                                                              APPENDIX VI

                  OFFICE OF THE INSPECTOR GENERAL

                 ANALYSIS AND SUMMARY OF ACTIONS

                    NECESSARY TO CLOSE REPORT


       The Department of Justice (DOJ), Office of the Inspector General (OIG)
provided a draft of this audit report to the Office of Justice Programs (OJP)
and Unified Solutions Tribal Community Development Group, Inc., (Unified
Solutions). Unified Solutions’ response is incorporated as Appendix IV of this
final report. OJP’s response is incorporated as Appendix V of this final
report. The following provides the OIG analysis of the responses and
summary of actions necessary to resolve the report.

Analysis of OJP’s Response

       In response to our audit report, OJP concurred with our
recommendations and discussed the actions it will implement in response to
our findings. As noted in Appendix V of this final report, OJP stated that it
will coordinate with Unified Solutions to remedy each recommendation.

Analysis of Unified Solutions’ Response

      In its response to our audit report, Unified Solutions concurred with
the nine management improvement recommendations and discussed the
actions it will implement in response to these findings. However, Unified
Solutions stated that it disagreed with all four recommendations related to
questioned costs, and it provided 36 attachments concerning our findings.
Specifically, Unified Solutions disagreed with $55,870 of $62,976 in
expenditures identified as unallowable under grant guidelines; $60,956 of
$61,076 in expenditures identified as lacking adequate supporting
documentation; $129,682 in expenditures in excess of the budget for Grant
No. 2005-VR-GX-0012; and $10,309 in expenditures in excess of the budget
for Grant No. 2006-MU-GX-0001.

Summary of Actions Necessary to Close the Report

1.	 Resolved. OJP agreed with our recommendation that Unified Solutions
    develops and implements procedures for accurate recording of
    drawdowns in the general ledger. OJP stated in its response that it will
    coordinate with Unified Solutions to obtain a copy of the procedures
    implemented to ensure accurate recording of grant drawdowns in
    Unified Solutions’ general ledger.



                                     48

    In its response, Unified Solutions concurred with this recommendation.
    Unified Solutions stated that it had corrected four drawdowns that it had
    allocated to incorrect grants and had identified the missing drawdown in
    its accounting records, although we were not provided documentation of
    the corrections or the missing drawdown. Unified Solutions also stated
    that it now has procedures in place for the accurate recording of
    drawdowns. Unified Solutions provided us with an example of a “Fund
    Withdrawal Request” document as additional support. While this
    document would support the approval of a drawdown, it does not
    constitute a procedure that would ensure that drawdowns are recorded
    accurately in the general ledger.

    This recommendation can be closed when we receive evidence that
    Unified Solutions has developed and implemented procedures for the
    accurate recording of drawdowns in the general ledger.

2.	 Resolved. OJP agreed with our recommendation that Unified Solutions
    develops and implements procedures for accurate recording of
    expenditures in the general ledger. OJP stated in its response that it
    will coordinate with Unified Solutions to obtain a copy of the procedures
    implemented to ensure that grant expenditures are accurately recorded
    in their general ledger.

    In its response, Unified Solutions concurred with this recommendation.
    Unified Solutions acknowledged that there have been issues in the past
    with the accuracy of expenditures, which had to be corrected during
    annual audits. Unified Solutions stated it is working to implement better
    procedures so that expenditures will be accurately recorded and will not
    need to be corrected during its annual audit.

    This recommendation can be closed when we receive evidence that
    Unified Solutions has developed and implemented procedures for the
    accurate recording of expenditures in the general ledger.

3.	 Resolved. OJP agreed with our recommendation to remedy $62,976 in
    questioned costs due to unallowable expenditures. OJP stated in its
    response that if adequate documentation cannot be provided to
    demonstrate that the costs were allowable, it will request that Unified
    Solutions return the funds to the DOJ, adjust its accounting records to
    remove the costs, and submit a revised final Federal Financial Report
    (FFR) for each grant.

    Unified Solutions stated that it did not agree with $55,870 of the
    $62,976 in unallowable expenditures. Unified Solutions stated that it


                                     49

agreed that expenditures for penalties are unallowable, noting that it
has adopted better procedures for identifying those unallowable costs
under OMB Circular A-122. Unified Solutions further stated that it would
either find other funds to pay for those costs or start avoiding the costs
altogether. Although OMB Circulars are used as criteria to determine
the allowability of certain types of costs, we also use the OJP Financial
Guide, grant award documents, and approved grant budgets as criteria
for grant audits to assess the allowability of specific expenditures.

With regard to the $55,870 in unallowable expenditures for which
Unified Solutions disagreed, it provided its own analysis of our findings,
with an explanation for each category of unallowable expenditure and
additional support for some of the expenditures that it felt were properly
supported and allowable. These responses follow below, summarized by
category of unallowable questioned cost.

Penalty Fees

Unified Solutions stated that it could not verify $595 of $678 in
questioned costs for penalty fees and late payment fees paid with grant
funds. Unified Solutions stated that penalties paid in January 2010
occurred prior to a change in the method of transmitting payroll and
payroll taxes, and late fees were due to late credit card payments.

Unified Solutions stated that it disagreed with $83 questioned for an IRS
penalty for a late payment and stated this was part of $252 refunded to
Unified Solutions by the U.S. Treasury on February 22, 2007. As
support, Unified Solutions provided a printout of a transaction from its
general journal. This one page document contained two offsetting line
items – the first had no transaction description, a memo note of
“refund,” and indicated a debit of $273 to the account “[redacted]
Bank-TVA.” The second line item had no transaction description, a
memo note of “refund,” and indicated a credit of $273 to the account
“Rebates and Refunds.” Since this document was created by Unified
Solutions and contains no external support, does not reference the IRS
penalty, and is for a different dollar amount than the questioned
expenditure, we cannot accept this document as evidence of allowability
for this expenditure.

The OJP Financial Guide specifically lists fines and penalties as
unallowable costs. Unified Solutions’ accounting records contained
documentation for each of the fines and penalty fees questioned as a
result of our audit. As Unified Solutions did not provide support for the
allowability of these expenditures, we question expenditures of $678 for


                                 50

penalty fees as unallowable costs.

Bonus Payments to Personnel

Unified Solutions stated in its response that it did not agree that
$33,196 of $33,957 questioned for employee bonuses paid with grant
funds was unallowable. Unified Solutions stated that bonus payments to
employees were budgeted items for individual salaries, including the
Executive Director. Unified Solutions also stated that the Board of
Directors, “in most cases,” voted on employee bonuses, which were
approved by the Executive Director and the Board of Directors. Unified
Solutions cited an OJP Financial Guide rule allowing bonuses as long as
they do not exceed 110 percent of SES pay, and stated that no salaries
were in excess of the SES level.

We reviewed the approved budget detail for each grant and each
supplement and noted that Unified Solutions provided specific
information for personnel expenses, including a specific salary for each
employee and percentage of time budgeted for each employee to each
grant. Unified Solutions did not list bonus payments in the approved
budgets for any of the grants or supplements. Additionally, the OJP
Financial Guide states that bonuses to officers or board members of
profit or non-profit organizations are unallowable, as they are
determined to be a profit or fee. Based on that criterion, bonus
payments to the Executive Director would be unallowable even if
included in the approved budget.

Therefore, based on the criteria used for this audit, Unified Solutions did
not provide support for the allowability of these expenditures and we
question expenditures of $33,957 for employee bonuses paid with grant
funds as unallowable.

Excess Allowable Reimbursements

Unified Solutions stated in its response that it did not agree with
$1,540 of $6,290 questioned as unallowable for excessive
reimbursements for spousal health care insurance. Unified Solutions
provided an e-mail from the former Executive Director dated
July 14, 2008, approving one payment in excess of Unified Solutions’
reimbursement limit. Unified Solutions also provided Board of Directors
meeting minutes dated January 25, 2010, which included a suggested
revision to spousal health insurance reimbursement. The suggested
revision would have resulted in a monthly allowance of $400 for
premiums paid directly to an insurance agency, while removing the


                                  51

$180 allowance for third party insurance plans.

During our transaction testing, the expenditures we reviewed relating to
spousal health insurance reimbursement included multiple documents
supporting a $180 monthly limit, and we questioned all expenditures in
excess of that limit. These documents included an e-mail to a former
Executive Director and the Business Manager, a memo from a former
Executive Director to employees, and the past employee handbook. We
reviewed Unified Solutions’ current employee handbook and determined
that it did not contain any language regarding allowances for the
reimbursement of third party insurance premiums, nor did it include the
January 25, 2010, suggested revision by Unified Solutions discussed
above. Further, had the suggested language above been enacted, all
payments made as reimbursement for spousal health insurance after
that date would have been unallowable, as in each instance they were
paid directly to an individual and not to an insurance agency.
Therefore, we question expenditures of $6,290 for excessive
reimbursements for spousal health care insurance as unallowable.

Unbudgeted Items – Storage Rental

Unified Solutions stated in its response that it does not agree that
$2,839 in questioned costs for rental of a storage locker were
unallowable. Unified Solutions stated that these expenditures were for
the rental of space for document storage. Unified Solutions included as
support a February 2009 e-mail correspondence between a former
Executive Director and the Business Manager discussing storage unit
rental costs. Unified Solutions also stated that storage rental
expenditures were approved by the Executive Director and were
included in the approved grant budgets under “office rent.” Unified
Solutions stated that there is a separate line item for “storage” in the
grant budgets for Grant Nos. 2009-MU-GX-K012 and 2009-VI-GX-0001.

While “office rent” was listed in the approved budget for each grant and
each supplement, it described office rental by specific square footage,
as well as the number and type of rooms in the space rented; none of
those descriptions include an allowance for external rental. We also
reviewed the approved grant budgets for Grant Nos. 2009-MU-GX-K012
and 2009-VI-GX-0001, and determined that storage was a line item in
the approved budgets for those grants, but did not appear until
Supplement 2. Supplement 2 for each grant funded the period from
September 1, 2011, to August 31, 2012. Storage expenditures that we
questioned as unallowable occurred from May 4, 2009, to
August 27, 2011; we did not question any storage expenditures that


                                52

occurred after September 1, 2011. Therefore, these storage rental
expenditures for $2,839 are still questioned as unallowable.

Unbudgeted Items – Electronics

Unified Solutions stated in its response that it does not agree that
$485 in questioned costs for unbudgeted electronics items were
unallowable. Unified Solutions stated that this purchase was for office
supplies, and also stated that Unified Solutions considers any purchase
under $5,000 per item, per grant, to be office supplies.

These questioned expenditures occurred on November 1, 2010. The
approved grant budgets for this period specifically listed what
equipment and supplies were to be purchased, including three laptop
computers, office furniture, specific consumable supplies for training and
technical assistance events, specific promotional supplies for training
and technical assistance events, and videos and books for the resource
library. The budgets included specific items to be purchased, and the
quantity and unit price for each item to be purchased. The electronics
items questioned were not listed in the approved grant budgets and the
expenditure for $485 is therefore unallowable.

Unbudgeted Items - iPads

Unified Solutions stated in its response that it does not agree that
$2,396 in questioned expenditures for two unbudgeted Apple iPads
purchased in July 2010 was unallowable; it does not agree that $1,181
in questioned expenditures for one unbudgeted Apple iPad purchased in
July 2011 was unallowable; and it does not agree that $900 in
questioned expenditures for one unbudgeted Apple iPad purchased in
August 2011 was unallowable. Unified Solutions stated that these
purchases were for office supplies, and also stated that Unified Solutions
considers any purchase under $5,000 per item, per grant, to be office
supplies.

The questioned expenditures occurred in July 2010, July 2011, and
August 2011. The approved grant budgets for these periods specifically
listed what equipment and supplies were to be purchased, and included
one desktop computer, one phone, three laptop computers, office
furniture, specific consumable office supplies, specific consumable
supplies for training and technical assistance events, specific
promotional supplies for training and technical assistance events, and
videos and books for the resource library. The budgets included specific
items to be purchased, and the quantity and unit price for each item to


                                 53

     be purchased. The Apple iPads questioned were not listed in the
     approved grant budgets and the expenditures for $2,396; $1,181; and
     $900 were therefore unallowable.

     We also questioned the need and purpose of the iPads. When asked
     why the iPads were purchased, Unified Solutions management stated
     that they were purchased because their laptops were too large to use on
     airplanes. Two Unified Solutions employees at the Tempe office, during
     the time of our audit, were assigned iPads. We asked the first employee
     to provide their iPad for verification and the employee stated that it was
     not at the office. The second employee was the Executive Director, who
     is based in Virginia and flew to Tempe for our audit; we asked him to
     provide his iPad for verification and we were told that the iPad was
     located in Virginia.

     The Executive Director also stated that he had purchased two iPads, in
     the same year, for his use because the first one had broken, was too
     expensive to fix, and the warranty had expired. We noted no iPads
     listed on the disposal sheet and we were unable to locate any
     documentation or investigation by Unified Solutions of the broken iPad,
     as required by the OJP Financial Guide. Additionally, according to Apple,
     iPads come with a warranty of 1 year of hardware repair coverage. 7
     According to Unified Solutions’ accounting records, the Executive
     Director’s first iPad was purchased July 21, 2010, and the replacement
     iPad was purchased July 12, 2011, before expiration of Apple’s 1 year
     hardware repair warranty.

     Considering Unified Solutions’ assignment of a laptop computer to each
     employee, coupled with staff inabilities to produce their assigned iPads
     for verification, we determined that the iPads do not appear to be
     needed for the grant funded programs or serve the purposes stated by
     Unified Solutions management.

     Unbudgeted Items – Home Shopping Network

     Unified Solutions stated in its response that it does not agree that
     $220 in questioned expenditures for a DVD recorder purchased from a
     home shopping network were unallowable. Unified Solutions stated that
     the device was purchased to convert VHS tapes to DVDs, as Unified
     Solutions has a large library of VHS tapes. Unified Solutions stated that

      7
          http://www.apple.com/legal/warranty/archived/20110101/ipad-english.html
explains the warranty that was valid for iPads purchased before October 4, 2011.




                                          54

these purchases were budgeted under office supplies.

This questioned expenditure occurred in October 2010. The approved
grant budgets for these periods specifically listed what equipment and
supplies were to be purchased, and included one desktop computer, one
phone, specific consumable office supplies, specific consumable supplies
for training and technical assistance events, specific promotional
supplies for training and technical assistance events, and videos and
books for the resource library. The budgets included specific items to
be purchased, and the quantity and unit price for each item to be
purchased. The DVD recorder purchased was not listed in the approved
grant budgets and the expenditure for $220 was therefore unallowable.

During our audit, we observed that the purchase order for this
expenditure was signed by the Executive Director. We also observed
that the invoice was billed to a relative of the Executive Director, with a
Pennsylvania address, and was delivered to the same relative at a
Virginia address. Unified Solutions stated in its response that this
relative was noted on the invoice because the home shopping network
account was in the relative’s name. Recipients of grant funds need to
ensure that grant funded expenditures are only made by authorized
grantee officials.

Additionally, the DVD recorder was shipped to Virginia and therefore
does not appear to be used by Unified Solutions for converting its library
of VHS tapes to DVDs, as that library is located in Tempe, Arizona. The
DVD recorder also does not appear on Unified Solutions’ equipment list
for the Tempe office.

Unbudgeted Items – Video Conferencing

Unified Solutions stated in its response that it does not agree that
$9,590 in questioned expenditures for unbudgeted video conferencing
equipment and software was unallowable. Unified Solutions stated that
these purchases were for office supplies, and also stated that it
considers any purchase under $5,000 per item, per grant, to be office
supplies.

These questioned expenditures occurred in November 2011. The
approved grant budgets for these periods specifically listed what
equipment and supplies were to be purchased, including three laptop
computers, office furniture, specific consumable supplies for training and
technical assistance events, specific promotional supplies for training
and technical assistance events, and videos and books for the resource


                                  55

library. The budgets included specific items to be purchased, and the
quantity and unit price for each item to be purchased. The video
conferencing equipment and software questioned were not listed in the
approved grant budgets and the expenditures for $9,590 were therefore
unallowable.

Additionally, the OJP Financial Guide defines Equipment as “tangible,
nonexpendable personal property having a useful life of more than 1
year and an acquisition cost of $5,000 or more per unit. A recipient
may use its own definition of equipment provided that such definition
would at least include all equipment defined above.” Unified Solutions’
policy of accounting for expenditures by allocating the purchase of one
item to multiple grants, rather than by total asset cost, does not include
all equipment as defined by OJP; the video conferencing equipment and
software should have been accounted for as equipment.

Noncompliance With Vehicle Rental Policies

Unified Solutions stated in its response that it does not agree that
$1,856 in questioned expenditures for noncompliance with vehicle rental
policies was unallowable. Unified Solutions stated its car rental policy
needs to be updated to “what actually occurs,” and the policy allows a
waiver if “authorized by the Executive Director.” Unified Solutions also
stated the costs were approved by the Executive Director and two of the
questioned rental expenditures were for the Executive Director.

The OJP Financial Guide states that travel expenses are allowable costs
for employees who are in travel status on official business related to the
award. These costs must be in accordance with federal policy or an
organizationally approved travel policy. The Unified Solutions
Operations Manual states “Rentals shall be compact or mid-size
automobiles. Use of a full-size car, van, or sports utility vehicle is
acceptable only when four (4) or more persons are traveling together
and sharing the rental. Travelers must return the rental car with the
correct amount of gas per the rental agreement. Any refilling charge or
gas charges imposed by the rental agency, in excess of the average gas
price at the time of the rental, will be the financial responsibility of the
traveler, unless a waiver is authorized by the Executive Director.”

Unified Solutions stated in its response that approval of a vehicle rental
by the Executive Director constitutes a blanket waiver for deviations
from the stated vehicle rental policy. We disagree with this statement,
as any deviation from grant guidelines should require advance written
approval. Additionally, blanket deviations from grant guidelines create


                                  56

increased risk and potential for misuse of grant funds, as internal
controls over grant funds can be more easily overridden without proper
oversight. During our audit, we did not identify any documented
requests for, or approvals of, waivers from the stated vehicle rental
policy for size of vehicle or for fuel refilling costs. Therefore, the
questioned expenditures of $1,856 for noncompliance with vehicle rental
policies were unallowable.

We also note that one of the questioned vehicle rentals for the Executive
Director was a Chevrolet Camaro sports car. That 4 day rental cost was
twice as much as another employee’s weeklong intermediate class
rental that was rented for the same time period and location. It is our
opinion that rental of a sports car is not the best use of limited grant
funding.

Contractor Concurrently Paid As Employee

Unified Solutions stated in its response that it does not agree that
$1,584 in questioned expenditures for an employee that was
concurrently paid as a contractor was unallowable. Unified Solutions
stated that the employee was paid as a contractor for attending a
conference from October 31 to November 2, 2005, and was not hired as
an employee until November 21, 2005.

In its response, Unified Solutions provided an independent contractor’s
invoice from the individual for attendance at a conference from October
31 to November 2, 2005, and included a detailed list of $1,708 in
expenses, including salary, hotel, per diem, mileage, parking, and
ground transportation. The document includes handwritten notes by
Unified Solutions personnel that reduced the invoice amount to $1,584
and indicated a need for original receipts and original invoice. We
determined that this document does not constitute adequate support for
this expenditure, as it does not include a signed contract that details the
purpose of the independent contracting agreement, an agenda for the
conference, or evidence of the individual’s hire date as an employee of
Unified Solutions. Therefore, the questioned expenditure of $1,584 for
an employee that was concurrently paid as a contractor was
unallowable.




                                  57

    Excessive Contractor Payment

    Unified Solutions stated that it agrees that documentation to support
    $1,000 for payments in excess of contract allowance for one contractor
    could not be located. Unified Solutions stated that an addendum to the
    contract should have been completed, and it will monitor contractors for
    compliance with invoices.

    After considering Unified Solutions’ responses to questioned costs for
    unallowable expenditures, we determined that Unified Solutions has not
    provided adequate documentation to support the reduction of any of the
    questioned costs noted in our audit due to unallowable expenditures.
    This recommendation can be closed when we receive evidence that
    Unified Solutions has remedied the $62,976 in questioned costs
    identified as unallowable.

4.	 Resolved. OJP agreed with the recommendation to remedy $61,076 in
    questioned costs due to expenditures that lacked adequate support.
    OJP stated in its response that it will coordinate with Unified Solutions to
    remedy the $61,076 in questioned costs related to expenditures that
    lacked adequate support. OJP stated that if adequate supporting
    documentation cannot be provided, OJP will request that Unified
    Solutions return the funds to the DOJ, adjust its accounting records to
    remove the costs, and submit a revised final FFR for each grant.

    In its response, Unified Solutions stated that it did not agree with
    $60,956 of the $61,076 in expenditures that we identified as lacking
    adequate supporting documentation. Unified Solutions provided its own
    analysis of our findings related to unsupported expenditures, with an
    explanation for each unsupported expenditure organized by payee, and
    additional support for some of the expenditures that it felt were properly
    supported. These responses are presented below, as organized by
    Unified Solutions, by payee.

    Office Max

    Unified Solutions stated in its response that it did not agree that
    $1,711 for questioned expenditures for office furniture purchased on
    March 1, 2006, was unsupported. Unified Solutions stated that the two
    transactions listed in the general ledger were a duplication of the same
    charge. As additional support, Unified Solutions provided a ledger of
    13 journal entries for this transaction dated December 4, 2006, and a
    purchase request for $2,765 for furniture from Office Max dated
    March 6, 2006.


                                      58

After reviewing the additional documentation provided by Unified
Solutions, we remain unable to conclude that the $1,711 for these
transactions were adequately supported. While Unified Solutions stated
that the two expenditures were a duplication of the same charge, the
accounting records contained two line items in differing amounts for
purchases from Office Max on March 6, 2006; one transaction occurred
in the amount of $577 and the second transaction in the amount of
$1,134. Additionally, the ledger of journal entries provided by Unified
Solutions is dated December 4, 2006, and did not include any
documentation explaining what the journal entries are adjusting.
Further, the purchase request for furniture was the same document that
we reviewed during our audit, with the exception that there was
handwriting across the front of the new document that said “credit
12/4/06 ‘charges cleared under different amount’.”

The additional documentation did not provide support for Unified
Solutions’ explanation of duplicate expenditures, nor did it adequately
support specifically what was purchased through these expenditures.
Therefore, the questioned expenditure of $1,711 for office furniture was
unsupported.

Advisory Board Dinner

Unified Solutions stated in its response that it did not agree that
$369 for a working dinner for the Advisory Board on April 23, 2008, was
unsupported. Unified Solutions stated the charge was for a working
dinner and was adequately supported because the Unified Solutions
credit card was used to pay for the dinner and the card was in the
possession of the former Executive Director. Unified Solutions also
provided an e-mail dated April 17, 2008, from the former Executive
Director regarding an advisory board dinner whose attendees were the
OVC Director, Deputy Director, and Program Specialist, three Unified
Solutions Board Members, Unified Solutions staff, and five other
individuals.

After reviewing the additional documentation provided by Unified
Solutions, which included an e-mail invitation to the dinner and a credit
card receipt for $369, we determined this expenditure to be
unsupported. The documentation did not include an itemized receipt or
a list of attendees. It also did not include evidence that OVC officials
paid their own food and beverage costs, as required by the OJP Financial
Guide. Since we were unable to verify specifics of what this transaction
purchased and for whom, we determined the expenditure of $369 for a


                                 59

working dinner for the Advisory Board was unsupported.

AlphaGraphics

Unified Solutions stated in its response that it did not agree that
$2,070 for forum materials purchased on April 3, 2007, was
unsupported. Unified Solutions stated that there were several items on
the invoice that were not on the original estimate.

During our audit, we reviewed documentation for this expenditure. The
original estimate for 60 participant guides and 60 instructor guides was
dated March 15, 2007, and indicated an estimated total of $5,651. The
invoice dated March 30, 2007, indicated the same quantities of guides
and a total due of $7,720, which was paid by Unified Solutions on April
3, 2007. Unified Solutions was unable to provide documentation to
support the $2,070 increase from the estimate, which was paid.
Therefore, we determined the expenditure of $2,070 for forum materials
was unsupported.

Legal Fees

Unified Solutions stated in its response that it did not agree that $98 for
fees paid to a law firm on May 16, 2009, was unsupported. Unified
Solutions stated that the transaction was for preparation of an audit
response required by Unified Solutions’ annual auditors, and provided a
check request, invoice, and an e-mail discussing the transaction.

The additional documentation provided by Unified Solutions included an
approved check request and an invoice from the law firm to Unified
Solutions. We were not provided these documents in Unified Solutions’
grant records at the time of our audit, but after receiving them from
Unified Solutions we determined they constituted adequate support for
this transaction. As a result of this additional documentation, total
unsupported questioned costs will be reduced by $98.

HP Home Store

Unified Solutions stated in its response that it did not agree that
$10,000 for five questioned expenditures for office furniture purchased
August 2 and August 6, 2010, was unsupported. Unified Solutions
stated that the expenditures were “very confusing,” and stated that they
were part of a larger purchase of $23,698. Unified Solutions provided
additional documentation for this expenditure, including a purchase
request for $23,698, dated August 2, 2010; an order confirmation with


                                  60

the same date and total; an American Express bill for $85,458, dated
August 16, 2010, that listed 10 different Office Max purchases from
August 2, 2010, to August 12, 2010, which ranged between $144 and
$11,802; and 19 pages of delivery receipts totaling $15,273.

The additional documentation provided by Unified Solutions was the
same documentation we reviewed in grant files during our audit. The
amount of the purchase request that was paid did not match the
expenditures noted in the general ledger, nor did it match the items
listed on the delivery receipt. The amounts noted on the American
Express bill did not match the general ledger, nor did they match the
delivery receipt. Since we were unable to verify specifics of what this
transaction purchased, we determined that the expenditure of $10,000
for the purchase of office furniture was unsupported.

Consultant 1

Unified Solutions stated in its response that it did not agree that
$4,800 for consulting fees paid on May 1, 2011, was unsupported.
Unified Solutions stated that the transaction was for a conference
coordinator, and provided a check request, invoice, time log, and
contract.

The additional documentation provided by Unified Solutions included an
approved check request, invoice, time log, and contract. At the time of
our audit, we were able to locate all of these documents in Unified
Solutions’ grant records except for the contract. After receiving the
contract from Unified Solutions, we determined the documentation
constituted adequate support for this transaction. As a result of this
additional documentation, total unsupported questioned costs will be
reduced by $4,800.

Memory Suppliers, Inc.

Unified Solutions stated in its response that it did not agree that
$3,165 for questioned expenditures for memory sticks purchased on
April 7, 2010, was unsupported. Unified Solutions stated that the
purchase was made using the Unified Solutions credit card that is co­
signed by the Executive Director and Board Treasurer. Unified Solutions
provided a signed check request and a quotation and invoice for the
purchase.

The additional documentation provided by Unified Solutions included a
check request, quotation, and invoice. At the time of our audit, we were


                                 61

not provided these documents in Unified Solutions’ grant records. After
receiving these documents from Unified Solutions, we determined that
they constituted adequate support for this transaction. As a result of
this additional documentation, total unsupported questioned costs will
be reduced by $3,165.

Consultant 2

Unified Solutions stated in its response that it did not agree that
$13,467 for questioned expenditures for a contracted consultant paid
July 26, 2010, was unsupported. Unified Solutions stated the contractor
owns TAIWA and the check should have been written to TAIWA. Unified
Solutions provided documentation, including an approved check request
for $8,064, dated August 5, 2010; an invoice for $8,064, dated
July 21, 2010; and a log of 144 billable hours from April 27, 2010, to
July 10, 2010.

During our audit, we were not provided any documentation for this
transaction in the grant files under the contractors’ name or under
TAIWA. The additional documentation provided by Unified Solutions as
support for this transaction did not match the expenditure in terms of
payee, date, or dollar amount. Therefore, we determined the
expenditure of $13,467 for contractor costs was unsupported.

TAIWA, LLC

Unified Solutions stated in its response that it did not agree that
$8,167 for questioned expenditures for TAIWA, LLC on October 6, 2011,
was unsupported. Unified Solutions provided documentation, including
an approved check request, invoice, and three contracts for content
development and technical support.

The additional documentation provided by Unified Solutions included a
check request, invoice, and three contracts for content development and
technical support. At the time of our audit, we were not provided these
documents in Unified Solutions’ grant records. After receiving these
documents from Unified Solutions, we determined they constituted
adequate support for this transaction. As a result of this additional
documentation, total unsupported questioned costs will be reduced by
$8,167.




                                62

Consultant 3

Unified Solutions stated in its response that it did not agree that
$10,000 for questioned expenditures for consultant expenses paid
October 6, 2011, was unsupported. Unified Solutions provided
additional documentation, including an approved check request,
consultant invoice, and e-mail from the Program Director discussing a
contract.

The additional documentation provided by Unified Solutions included a
check request, consultant invoice, and e-mail from a Program Director
discussing a contract. We previously reviewed each of these documents
in Unified Solutions’ grant records during our audit. We were not
provided a contract detailing deliverables, timelines, and price; this
document is referenced in an e-mail provided by Unified Solutions, but
the contract itself has not been provided to us. Therefore, we
determined the expenditure of $10,000 for consultant expenses was
unsupported.

Consultant 4

Unified Solutions stated in its response that it did not agree that $2,099
in questioned expenditures for consultant expenses dated April 24,
2010; May 4, 2010; and August 10, 2010, that we determined were
unsupported. Unified Solutions provided additional documentation,
including approved check requests, consultant invoices, and contracts.

The additional documentation provided by Unified Solutions included two
approved check requests, three consultant invoices, and three contracts
that specified deliverables and fees. At the time of our audit, we were
not provided these documents in Unified Solutions’ grant records. After
receiving these documents from Unified Solutions, we determined that
they constituted adequate support for this transaction. As a result of
this additional documentation, total unsupported questioned costs will
be reduced by $2,099.

Consultant Stipends

Unified Solutions stated in its response that it did not agree that $1,500
in questioned expenditures for six consultant stipends paid on
November 17, 2007 were unsupported. Unified Solutions provided
additional documentation, including approved check requests, emails,
hotel receipts, and a meeting agenda.



                                 63

The additional documentation provided by Unified Solutions included six
approved check requests, an agenda for the 2007 TVA National Advisory
Board Meeting, two emails discussing the meeting, and seven pages of
hotel receipts. The agenda indicates that the meeting date was
December 4, 2007, and hotel receipts indicate arrival dates of
December 2, 2007, and departure dates of December 6, 2007. The
stipends were paid on November 17, 2007, more than 2 weeks before
the meeting date. We were not provided with a list of meeting
attendees and were unable to verify that stipend recipients attended the
meeting. Therefore, we determined the expenditure of $1,500 for
consultant stipends was unsupported.

Executive Director’s Computer

Unified Solutions stated in its response that it did not agree that $3,059
in questioned expenditures for a computer purchased on April 1, 2011
was unsupported. Unified Solutions provided documentation, including
an approved check request and order receipts.

The additional documentation provided by Unified Solutions included an
approved check request and four order receipts. The order receipts
indicate that the computer was purchased on March 28, 2011. The
purchase request was submitted April 1, 2011, and approved by the
Executive Director on April 19, 2011. We determined that the purchase
request and purchase receipts constituted adequate support for this
transaction. As a result of this additional documentation, total
unsupported questioned costs will be reduced by $3,059.

While this transaction was supported with the additional documentation,
we noted the transaction was requested 3 days after purchase and
approved by the purchaser 22 days after purchase. According to section
one of Unified Solutions’ Financial Procedures Manual, purchase requests
should be submitted in writing prior to the placement of orders and
credit card purchases must also be pre-authorized. Unified Solutions
should ensure that purchases are not made without advance written
approval.

Consultant 5

Unified Solutions stated in its response that it did not agree that $452 in
questioned expenditures for consultant expenses paid on June 1, 2009,
was unsupported. Unified Solutions provided documentation, including
approved check requests, invoices, and contracts.



                                  64

    The additional documentation provided by Unified Solutions included two
    check requests, two consultant invoices, an unsigned contract for 2006
    and a contract amendment dated June 13, 2006, and a signed contract
    dated November 30, 2009. The 2006 contract stated an hourly rate of
    $22 and the 2009 contract stated an hourly rate of $30. The additional
    contracts differed from documents we reviewed in Unified Solutions’
    grant records during our audit; we previously reviewed a signed
    contract for 2006, which was signed by the contractor and Unified
    Solutions on June 16, 2006, and stated an hourly rate of $24. Based on
    the signature dates, we determined none of the contracts or
    amendments were relevant at the time of the $452 in expenditures we
    questioned as unsupported. The first contract expired on
    December 31, 2006, and the second contract was signed on
    November 30, 2009, while the unsupported expenditures occurred on
    June 1, 2009. However, we determined the consultant had been
    providing services to Unified Solutions consistently since at least 2006,
    so we did not question the entire amount paid to this consultant. We
    only noted the difference between the unsupported $27 hourly rate that
    was paid for 151 hours of work and the $24 hourly rate that was
    specified in the most recent contract provided by Unified Solutions.
    Therefore, we determined the expenditure of $452 for consultant
    expenses was unsupported.

    After considering Unified Solutions’ responses to questioned costs for
    unsupported expenditures, we determined that Unified Solutions has
    provided adequate documentation to support the reduction of
    questioned costs due to unsupported expenditures by $21,388. This
    recommendation can be closed when we receive evidence that Unified
    Solutions has remedied the remaining $39,688 in questioned costs
    identified as unsupported.

5.	 Resolved. OJP agreed with the recommendation to remedy
    $129,682 for expenditures in excess of the budget for Grant
    No. 2005-VR-GX-0012. OJP stated in its response that it will coordinate
    with Unified Solutions to remedy the $129,682 in questioned costs for
    Grant No. 2005-VR-GX-0012 related to expenditures in excess of the
    grant budget. OJP stated that if adequate documentation cannot be
    provided, OJP will request that Unified Solutions return the funds to the
    DOJ, adjust its accounting records to remove the costs, and submit a
    revised final FFR for the grant.

    Unified Solutions stated in its response that it did not agree with the
    dollar amount in excess of the budget for this finding. Unified Solutions
    referenced a spreadsheet “A-2” that we were not originally provided;


                                     65

   the attachment labeled by Unified Solutions as “A-2” was a summary
   sheet of questioned expenditures and did not include any notes related
   to the budget. Unified Solutions stated in its response that it had
   reclassified travel costs from where they were misclassified in the
   QuickBooks file under both the Consultants/Contracts and Other Costs
   budget categories. Unified Solutions acknowledged that it was still over
   budget in the Contractual/Consultant category as well as Supplies and
   Travel. Unified Solutions stated that this was because it had utilized
   consultants and other contract staff to provide services, instead of hiring
   staff that would have been charged under personnel and fringe benefit
   costs.

   Unified Solutions also stated that its staff was unaware of OJP
   requirements for budget revisions. According to Unified Solutions, its
   staff reviewed the budget in total for each year and knew that the
   overall budget was within 10 percent of the total, without looking at
   separate budget items. Unified Solutions stated that it will ensure that
   any amendments to budget items are fully approved by OVC prior to
   each year-end in accordance with OMB compliance regulations.

   We reviewed Unified Solutions’ response to this recommendation and
   determined that Unified Solutions provided no documentation to show
   that it was not over budget for Grant No. 2005-VR-GX-0012. Unified
   Solutions’ response included admissions that budget categories
   exceeded allowances, as well as statements that staff did not monitor
   the budget regularly or by budget category. The OJP Financial Guide
   requires prior approval of Grant Adjustment Notices (GAN) for proposed
   cumulative changes greater than 10 percent of the total award amount;
   changes must be approved prior to the occurrence of the cumulative
   change, not “prior to each year-end” as offered by Unified Solutions as a
   resolution to this recommendation.

   After considering Unified Solutions’ responses to $129,682 for
   expenditures in excess of the budget for Grant No. 2005-VR-GX-0012,
   we determined Unified Solutions had not provided documentation to
   support reduction of any of the expenditures in excess of the budget.
   This recommendation can be closed when we receive evidence that the
   $129,682 for expenditures in excess of the budget for Grant
   No. 2005-VR-GX-0012 have been remedied.

6.	 Resolved. OJP agreed with the recommendation to remedy $10,309
    for expenditures in excess of the budget for Grant No.




                                    66

     2006-MU-GX-0001. 8 OJP stated in its response that it will coordinate
     with Unified Solutions to remedy the $10,309 in questioned costs for
     Grant No. 2006-MU-GX-0001, related to expenditures in excess of the
     grant budget. OJP further stated that if adequate documentation cannot
     be provided, it will request that Unified Solutions return the funds to the
     DOJ, adjust its accounting records to remove the costs, and submit a
     revised final FFR for the grant.

     Unified Solutions stated in its response that it did not agree with the
     dollar amount in excess of the budget for this finding. In its response,
     Unified Solutions stated that the Profit & Loss statement (P&L) indicated
     that the total under the Contractual/Consultants budget category was
     $373,125. Unified Solutions stated that this category also included
     consultant travel in the amount of nearly $103,265. Unified Solutions
     stated that the P&L was set up to monitor consultant expenses under
     this category and that this would create an overage in this category in
     the amount of $50,909 once travel was subtracted from the
     Contractual/Consultant category. Unified Solutions also stated that,
     under the Other Costs budget category, the total figure of $285,984
     contained lodging expenses of $11,699 under “Advisory/Planning
     Meeting” and $11,696 for lodging under “Annual Conference: Room
     Rental/AV Services.” Unified Solutions stated that lodging has since
     been changed to the Travel budget category and these two figures
     subtracted from the total of Other Costs leaves a surplus in this
     category of nearly $5,261. Unified Solutions calculated the total of
     these figures as nearly $45,649 and stated that this amount is under
     the allowable 10 percent threshold.

     After considering Unified Solutions’ responses to $10,309 for
     expenditures in excess of the budget for Grant No. 2006-MU-GX-0001,
     we determined that Unified Solutions had not provided documentation
     to support the reduction of any of the expenditures in excess of the
     budget. Expenditures, according to Unified Solutions accounting
     records, did not match expenditures according to the approved grant
     budget. Unified Solutions provided a narrative explanation of
     expenditures that it had moved between budget categories after our
     audit, but no specific documentation was provided to support this
     explanation. This recommendation can be closed when we receive


       8
         In its response to Recommendation 6, OJP referred to Grant No. 2005-MU-GX-0001.
This recommendation addressed Grant No. 2006-MU-GX-0001. We determined OJP’s
response to be a typographical error, as the other information in its response addressed the
2006 grant specified in our recommendation.




                                            67

    evidence that the $10,309 for expenditures in excess of the budget for
    Grant No. 2006-MU-GX-0001 have been remedied.

7.	 Resolved. OJP agreed with our recommendation that Unified Solutions
    develops and implements policies and procedures to ensure consistent
    monitoring of expenditures in relation to budgeted amounts. OJP stated
    in its response that it will coordinate with Unified Solutions to obtain a
    copy of the policies and procedures implemented to ensure the
    consistent monitoring of expenditures in relation to budgeted amounts.

    In its response, Unified Solutions concurred with this recommendation.
    Unified Solutions stated that it had implemented procedures whereby
    financial consultants will prepare a budget to actual report for each line
    item of the budget for each grant, which will then be reviewed by the
    Executive Director. Unified Solutions also stated that requests for
    revisions to budget line item categories will be submitted to OVC to
    ensure that approval for those revisions is obtained. We note that the
    submission of a GAN, requesting prior approval for budget changes in
    excess of 10 percent of the total award amount, has been a requirement
    of the OJP Financial Guide since at least 2005.

    This recommendation can be closed when we receive evidence that
    Unified Solutions has developed and implemented policies and
    procedures to ensure consistent monitoring of expenditures in relation
    to budgeted amounts.

8.	 Resolved. OJP agreed with our recommendation that Unified Solutions
    develops and implements policies and procedures to monitor equipment
    purchased with grant funds. OJP stated in its response that it will
    coordinate with Unified Solutions to obtain a copy of the policies and
    procedures implemented to monitor equipment purchased with Federal
    grant funds.

    Unified Solutions stated in its response that it will update its equipment
    list to show which funding sources paid for all equipment. Unified
    Solutions also stated that it will perform a physical inventory of all
    equipment purchased with grant funds at least every 2 years and will
    accordingly revise where equipment is located. We note that this has
    been a requirement of the OJP Financial Guide since at least 2005.

    This recommendation can be closed when we receive evidence that
    Unified Solutions has developed and implemented policies and
    procedures to monitor equipment purchased with grant funds.



                                      68

9.	 Resolved. OJP agreed with our recommendation that Unified Solutions
    develops and implements policies and procedures for the disposal of
    equipment purchased with grant funds, and maintains documentation of
    disposed items in accordance with the OJP Financial Guide. OJP stated
    in its response that it will coordinate with Unified Solutions to obtain a
    copy of the policies and procedures implemented for the disposal of
    equipment purchased with Federal grant funds, and maintains
    documentation of disposed items in accordance with the OJP Financial
    Guide.

    In its response, Unified Solutions concurred with this recommendation.
    Unified Solutions stated that, in the past, equipment that was no longer
    usable was disposed of and other arrangements were made that the
    Board determined were acceptable ways to dispose of assets. Unified
    Solutions stated that, in the future, it will ensure that it complies with
    OMB compliance regulations and the OJP Financial Guide in the disposal
    of all equipment.

    Unified Solutions stated in its response that the disposals noted as
    “Asotin” or “Asotin County” were disposed based upon an agreement
    with the Asotin County Commissioner’s Office relative to a satellite office
    maintained in Clarkston, Washington, whereby Asotin County would
    assume lease payments 2 months early for a property rented by Unified
    Solutions and, in exchange, would take ownership from Unified
    Solutions of furnishings and equipment that had been located in the
    office. In its response, Unified Solutions provided us with a copy of a
    closing agreement between Unified Solutions and the Asotin County
    Commissioner’s Office, which stated the exchange of property; however,
    the agreement was signed by Unified Solutions management but was
    not signed by Asotin County officials. While we appreciate the
    additional documentation provided by Unified Solutions in its response
    to the Asotin County disposals, the additional documentation did not
    provide evidence of acceptance by the Asotin County Commissioner of
    the agreement nor did it resolve the lack of clarity for these disposals in
    Unified Solutions’ asset disposal list.

    In response to the draft report reference to items that were sold to a
    former employee, Unified Solutions agreed that the sale price was not
    noted on the inventory list, but stated that the purchase was noted in
    the accounting records and was deducted from the employee’s paycheck
    in July 2009. Unified Solutions also stated that the income from the
    purchase was credited to the grant. In our review of this explanation,
    we determined that items placed on the disposal list by Unified Solutions
    should accurately reflect disposition data, including sales price.


                                      69

    Unified Solutions stated in its response that repairing the digital copier
    noted in the disposal list as purchased for $9,470 on January 29, 2003,
    was not cost feasible. Unified Solutions stated that it purchased a new
    copier from a supplier that agreed to dispose of the old copier and that
    they have added the supplier’s name to the asset disposal list.

    In its response to this recommendation, we note that Unified Solutions
    specifically addressed three of the nine items we identified in this report
    as having issues with disposal documentation. Unified Solutions did not
    address the remaining 6 issues, which include inadequately documented
    disposals of a computer and fax, as well as a desk; 13 assets disposed
    of in durations of 10 to 22 months from purchase to disposal; 12 chairs
    valued at $1,200 disposed of 22 months after purchase; a computer
    server disposed of less than 10 months after purchase; and an iPad,
    which Unified Solutions management stated had broken, but was not
    listed on the asset disposal list. Since at least 2005, the OJP Financial
    Guide has required OVC grant recipients to maintain a control system
    that ensures adequate safeguards to prevent loss, damage, or theft of
    property, any of which must be investigated by the recipient.

    This recommendation can be closed when we receive evidence that
    Unified Solutions has developed and implemented procedures for the
    disposal of equipment purchased with grant funds, and maintain
    documentation of disposed items in accordance with the OJP Financial
    Guide.

10. Resolved.	 OJP agreed with our recommendation that Unified Solutions
    develops and implements procedures for the submission of accurate
    FSRs. OJP stated in its response that it will coordinate with Unified
    Solutions to obtain a copy of the procedures implemented to ensure that
    FFRs are accurately submitted.

    In its response, Unified Solutions concurred with this recommendation.
    Unified Solutions acknowledged in its response that FSRs were not
    always accurate, and stated that this occurred because adjustments
    were made in one period for expenditures that had occurred in a
    different period, such as correction of errors and adjustments for voided
    or lost checks. Unified Solutions stated that it will ensure every effort is
    made to file accurate FSRs in the future.

    We note the OJP Financial Guide requires grant recipients to establish
    and maintain an acceptable and adequate system of accounting, which
    supports current, accurate, and complete financial reporting.


                                      70

    This recommendation can be closed when we receive evidence that
    Unified Solutions has developed and implemented procedures to ensure
    that FSRs are accurately submitted.

11. Resolved.	 OJP agreed with our recommendation that Unified Solutions
    develops and implements procedures for the consistent submission of
    timely Progress Reports. OJP stated in its response that it will
    coordinate with Unified Solutions to obtain a copy of the procedures
    implemented to ensure that Progress Reports are timely submitted.

    In its response, Unified Solutions concurred with this recommendation.
    However, Unified Solutions stated that progress reports have been
    submitted on time under the current Executive Director and that it
    believes its current procedures will continue to ensure consistent
    submission of Progress Reports on a timely basis.

    This recommendation can be closed when we receive evidence that
    Unified Solutions has developed and implemented procedures for the
    consistent submission of timely Progress Reports.

12. Resolved.	 OJP agreed with our recommendation that Unified Solutions
    develops and implements procedures for compliance with all grant
    special conditions. OJP stated in its response it will coordinate with
    Unified Solutions to obtain a copy of the procedures implemented to
    ensure compliance with all grant special conditions.

    In its response, Unified Solutions concurred with this recommendation.
    Unified Solutions stated that it believes it has sufficient procedures for
    compliance with all grant special conditions; however, it also stated that
    the special condition for which we identified noncompliance was not
    mandated in prior special conditions. During our audit, however, Unified
    Solutions management stated that they were familiar with the grant
    award documents; these documents included all the special conditions
    that were attached to the original grant awards and each supplement.

    This recommendation can be closed when we receive evidence that
    Unified Solutions has developed and implemented procedures to ensure
    compliance with all grant special conditions.

13. Resolved.	 OJP agreed with our recommendation that Unified Solutions
    develops and implements procedures for use of the Excluded Parties List
    System (EPLS) when selecting vendors, consultants, or contractors.
    OJP stated in its response that it will coordinate with Unified Solutions to


                                      71

obtain a copy of the procedures implemented to ensure that the EPLS is
used when selecting vendors, consultants, or contractors.

In its response, Unified Solutions concurred with this recommendation.
Unified Solutions stated that it had developed a form and protocol to
ensure that the EPLS will be used and documented when selecting
vendors, consultants, and contractors in all future activities.

This recommendation can be closed when we receive evidence that
Unified Solutions has developed and implemented procedures for use of
the EPLS when selecting vendors, consultants, or contractors.




                                72

